<html>
<title> - OVERSIGHT HEARING ON THE STATUS OF FEDERAL WESTERN WATER RESOURCES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




               STATUS OF FEDERAL WESTERN WATER RESOURCES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 27, 2001

                               __________

                            Serial No. 107-9

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
71-352                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California,       Peter A. DeFazio, Oregon
  Vice Chairman                      Calvin M. Dooley, California
Greg Walden, Oregon                  Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona

                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 27, 2001...................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brophy, Michael J., Chairman, Western States Water Council...    11
        Prepared statement of....................................    13
    Burgess, Dr. Philip M., Senior Fellow for Technology and 
      Society, Center for the New West...........................    48
        Prepared statement of....................................    50
    Hirsch, Dr. Robert M., Associate Director for Water, U.S. 
      Geological Survey, Department of the Interior..............     7
        Prepared statement of....................................     9
    Malloch, Steven, Counsel, Trout Unlimited....................    40
        Prepared statement of....................................    42
    McDonald, J. William, Acting Commissioner, Bureau of 
      Reclamation, U.S. Department of the Interior...............     3
        Prepared statement of....................................     5
    Salisbury, Jennifer, Secretary, New Mexico State Department 
      of Energy, Minerals, and Natural Resources, on behalf of 
      the Western Governors' Association.........................    35
        Prepared statement of....................................    38
    Young, Ronald E., President, The WateReuse Research 
      Foundation Board...........................................    52
        Prepared statement of....................................    54

Additional materials supplied:
    Purkey, Andrew, Executive Director, Oregon Water Trust, 
      Statement submitted for the record.........................    69
    Walcher, Greg, Executive Director, Colorado Department of 
      Natural Resources, Statement submitted for the record......    71

 
   OVERSIGHT HEARING ON THE STATUS OF FEDERAL WESTERN WATER RESOURCES

                              ----------                              


                        Tuesday, March 27, 2001

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 1324, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE KEN CALVERT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Calvert. The oversight hearing by the Subcommittee on 
Water and Power will come to order. The Subcommittee is meeting 
today to hear testimony on the status of Federal Western Water 
Resources.
    Under Committee Rule 4(g), the Chairman and Ranking 
Minority Member can make an opening statement. If any members 
have statements, they can be included in the hearing record 
under unanimous consent.
    Mr. Calvert. Our Subcommittee is in a unique position this 
Congress to take action on two issues that have dominated media 
headlines this year--energy and water. As we have seen in 
California and other Western States, healthy economies and 
healthy communities depend on reliable supplies of each.
    Water and power are intimately tied to the history of the 
western United States. During the 19th and early 20th 
centuries, Federal water projects made irrigated agriculture 
viable and the creation of cities possible.
    Federal hydropower electrified the West and then fueled the 
rise of manufacturing and industry during World War II. Today, 
Federal water and power supports one of the world's most 
productive agricultural regions while providing the electricity 
needed to run our information-based economy.
    We have come here today to do two things--first, to 
evaluate the status of our Federal western water resources; and 
second, to explore how they may be better managed to meet our 
changing needs.
    The western U.S. is the fastest-growing region in the 
country. By 2025, the 17 Western States will add another 33 
million people. In addition, seven of the ten fastest-growing 
U.S. cities are located in the West. With this growth comes new 
economic prosperity and new opportunities in balancing water 
supply and demand.
    The Western States must plan for their future as a region. 
Water and power resources are not created and used in a vacuum. 
As we have seen with our current energy crisis and potential 
drought, resource supply challenges affect us as a region. They 
will not and do not remain isolated.
    As we listen to the testimony presented here today, our 
focus should be on the future direction of water resource 
planning. What are our priorities, and where will they take us 
in the West in the next 20 years?
    I would like to thank our witnesses for coming here today 
and look forward to hearing from them on this important issue.
    If the Ranking Member arrives shortly, we will certainly 
recognize him for any opening statement he may have, and if 
not, any opening statement may be placed in the record.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    Our Subcommittee is in a unique position this Congress to take 
action on two issues that have dominated media headlines this year... 
energy and water. As we have seen in California and other western 
states, healthy economies ... and healthy communities ... depend on 
reliable supplies of each.
    Water and power are intimately tied to the history of the Western 
United States. During the 19th and early 20th centuries, Federal water 
projects made irrigated agriculture viable ... and the creation of 
cities possible. Federal hydropower electrified the West and then 
fueled the rise of manufacturing and industry during World War II. 
Today, Federal water and power supports one of the world's most 
productive agricultural regions, while providing the electricity needed 
to run our information-based economy.
    We have come here today to do two things. First ... to evaluate the 
status of our Federal western water resources. And second ... to 
explore how they may be better managed to meet our changing needs.
    The western U.S. is the fastest growing region in the country. By 
2025, the 17 western states will add another 33 million people. In 
addition, 7 of the 10 fastest growing U.S. cities are located in the 
West. With this growth comes new economic prosperity ... and new 
opportunities in balancing water supply and demand.
    The western states must plan for their future as a region. Water 
and power resources are not created and used in a vacuum. As we have 
seen with our current energy crisis and potential drought, resource 
supply challenges affect us as a region. They will not, and do not, 
remain isolated.
    As we listen to the testimony presented here today, our focus 
should be on the future direction of water resource planning. What are 
our priorities? And where will the West be in 20 years?
    I would like to thank our witnesses for coming out here today, and 
look forward to hearing from them on this important issue.
                                 ______
                                 
    Mr. Calvert. I would certainly like to thank the panels of 
witnesses who are here with us today and would like to call the 
first panel forward for their testimony: Mr. J. William 
McDonald, Acting Commissioner, Bureau of Reclamation; Dr. 
Robert Hirsch, Associate Director of Water, United States 
Geological Survey; and Mr. Michael Brophy, Chairman of the 
Western States Water Council.
    I would like to now recognize Mr. McDonald to testify for 
five minutes. The timing lights are on the table and will 
indicate when your time has concluded when the red light comes 
on. All witness statements will be submitted for the record, if 
they are longer, after the hearing.
    With that, Mr. McDonald, you may begin.

 STATEMENT OF J. WILLIAM McDONALD, ACTING COMMISSIONER, BUREAU 
        OF RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. McDonald. Thank you, Mr. Chairman.
    My name is Bill McDonald, and I am Regional Director of the 
Bureau of Reclamation's Pacific Northwest Region, and I am also 
serving as the Acting Commissioner of Reclamation.
    I have here a map that shows how we are distributed 
geographically and organizationally, and I will take this 
opportunity, Mr. Chairman, to briefly describe that we have 
five regions in reclamation, and I am privileged to have with 
me in the audience some of my colleagues, if I could just 
acknowledge them, and we look forward to working with you and 
the Subcommittee.
    Rick Gold is Acting Regional Director of the Upper Colorado 
Region; Bob Johnson is Regional Director of the Lower Colorado 
Region; and finally, Lowell Plass is the Deputy Regional 
Director for the Mid-Pacific Region, and I believe you met 
Lowell a couple of weeks ago when you toured the project.
    With your permission, Mr. Chairman, I would be glad to 
summarize my prepared remarks and simply have the written text 
entered in the record.
    Mr. Calvert. Without objection.
    Mr. McDonald. Thank you.
    You have asked that we address the capacity of reclamation 
to meet the water needs of the Western States in both the long 
and the short term. Let me begin by giving you just a very 
brief background on reclamation.
    We are the largest water resource management agency in the 
West, operating 348 reservoirs and 58 hydroelectric power 
plants. We provide one out of five Western farmers with 
irrigation water. We deliver water to more than 31 million 
people throughout the 17 Western States. We are the second-
largest producer of hydroelectric power in the United States, 
with our plants on an average annual basis generating enough 
electricity to serve 14 million people; and that electricity, 
of course, is marketed by the Bonneville and Western Power 
Administrations.
    Finally, our reservoirs accommodate 90 million visitors 
each year at over 300 recreation sites as the American public 
enjoys the flatwater recreation and associated opportunities 
that are presented by our facilities.
    Our ability to assist in meeting the West's future water 
needs both in the short and the long term must begin, in our 
view, with the continued operation of our projects in 
accordance with all applicable Federal laws, State water rights 
and interstate compacts and judicial decrees, our contractual 
commitments to our irrigators and other project water users. 
And when applicable, of course, the operation of our projects 
must also fulfill the Secretary of the Interior's Tribal Trust 
responsibilities and the United States international treaty 
obligations to Mexico and Canada on certain of our river 
systems.
    In this day and age, needless to say, balancing water 
supply and hydro power demands with environmental and other 
obligations is an increasingly complicated and difficult task 
which at times requires some reductions either in the supplies 
available to our contractors or in the power which we are able 
to generate. More often than not, however, we believe that we 
are able to find a middle ground which enables us to fulfill 
all needs.
    Having dependable supplies of water power in the future 
also requires, besides the continued operation of our projects, 
that they, of course, be properly maintained. To put that 
maintenance responsibility in context, approximately 50 percent 
of Reclamation's dams were built prior to 1950, and about 90 
percent were constructed before state-of-the-art design and 
construction practices for dam construction were in place. 
Given the age of that infrastructure, sustaining an appropriate 
level of annual maintenance and making safety of dams 
modifications as required and on a timely basis are critical to 
protect public safety and property and to ensure that the 
benefits of our projects can continue to be realized.
    Let me take this opportunity in the context of the 
operation and maintenance of our projects, Mr. Chairman, to 
assure you and the panel that Reclamation is doing everything 
it can to generate electricity at this particular time in light 
of the West Coast electrical power marketing problems. While we 
presently have some generating units down for planned 
maintenance at certain of our power facilities, that in no way 
has affected our ability to generate, the reason being that 
there is only so much fuel--that is to say, water--in our 
reservoir systems, and we are able to fully run all of the 
available water through existing generators even though some 
are out for planned maintenance.
    On a different subject, my colleague, Bob Hirsch, from USGS 
will discuss general water supply conditions in the West, so I 
will not repeat those here; but not unexpectedly, we are 
experiencing drought, as we do from time to time, in sections 
of the West. It is particularly severe, as Bob will point out, 
in the Pacific Northwest this year.
    Pursuant to the authorities of the Reclamation States' 
Emergency Drought Relief Act of 1991, I would point out to the 
Committee that Reclamation does have some authority to 
construct temporary facilities, but only temporary facilities, 
and to implement management plans in the case where a drought 
occurs.
    The third area that I would emphasize as important to the 
future is voluntary transfers of water from existing to new 
users. Keeping in mind that approximately 85 to 90 percent of 
the water consumed in the West is devoted to agriculture, it is 
Reclamation's view that in the face of rapid urbanization, the 
changing economics of farming, and the need to strike a balance 
with appropriate protection of environmental values, voluntary 
transfers of water from willing sellers to willing buyers is 
very much a part of the future management of the Western water 
supply. In that context, Reclamation also supports the use of 
excess capacity in our physical facilities to store and convey 
non-project water supplies when, again, there are voluntary 
transactions between willing sellers and buyers who would like 
to make such a change in the use of water.
    Finally, we would observe that dams and reservoirs will be 
developed in the West in the future probably on a limited 
basis. Only, accordingly, the increased efficiency of use of 
the water supplies which have already developed is in our view 
a vital part of the West's water future.
    Reclamation has two major programs in that regard, and we 
believe we are a leader in these fields. First, through our 
Water Conservation Field Services Program and other activities, 
we provide water districts with technical and financial 
assistance to develop effective water conservation plans to 
stretch the use of those already existing developed supplies; 
and secondly, recycling and reuse of wastewater along with 
desalinization for agricultural and landscape irrigation, 
groundwater recharge, and industrial cooling holds very great 
potential for the future. Reclamation's Water Use Program 
assists Western cities in enhancing their supplies by providing 
funds for 25 projects that have been authorized by Congress at 
what is estimated to be a total ultimate cost of $600 million. 
To date, approximately $205 million has been made available to 
Reclamation for this Federal assistance, and upon completion of 
these projects, we would expect a yield of an additional 
500,000 acre-feet for beneficial use for the cities that are 
moving forward in that way.
    In conclusion, Mr. Chairman, finding ways to meet water 
needs presents a great challenge for Reclamation, to the 
States, to the Western communities and to other stakeholders. 
We look forward to working with the Subcommittee and with all 
water users and the interested public to find ways to meet 
competing demands in the future.
    Thank you very much. I would be glad to respond to 
questions.
    [The prepared statement of Mr. McDonald follows:]

   Statement of J. William McDonald, Acting Commissioner, Bureau of 
              Reclamation, U.S. Department of the Interior

    My name is Bill McDonald. I am the Regional Director of the Pacific 
Northwest Region and also am serving as Acting Commissioner of the 
Bureau of Reclamation (Reclamation). I appreciate the opportunity to be 
here today to discuss the state of western water resources.
    The Subcommittee has asked for an assessment of the capacity of 
Bureau of Reclamation facilities to meet the water needs of the Western 
States in the short and long term. Let me begin with a short overview 
of the facilities which Reclamation has developed and the benefits 
which they yield.
Background
    As the largest water resources management agency in the west, 
Reclamation administers or operates 348 reservoirs with a total storage 
capacity of 245 million acre-feet, 58 hydroelectric powerplants with an 
installed capacity of 14,744 megawatts, and more than 300 recreation 
sites in the 17 western states. These facilities enable Reclamation to 
meet important needs and provide numerous benefits:
    <bullet> LWe provide one out of five western farmers with 
irrigation water for 10 million acres of farmland that produce 60 
percent of the nation's vegetables and 25 percent of its fruit and 
nuts.
    <bullet> LWe deliver water to more than 31 million people in the 
west, the most rapidly urbanizing region of the country.
    <bullet> LOur powerplants generate an average of more than 42 
billion kilowatt hours of energy each year, making Reclamation the 
nation's second largest producer of hydroelectric power and the 11th 
largest generating utility in the United States. Reclamation produces 
enough electricity to serve 14 million people. Reclamation's Central 
Valley Project in California generated more than 6.5 billion kilowatt 
hours of energy in 1999 and serves approximately 2 million 
Californians. All power generated by Reclamation facilities is marketed 
by the Bonneville Power Administration and the Western Area Power 
Marketing Administration.
    <bullet> LOur projects support habitat with water for wildlife 
refuges, migratory waterfowl, anadromous and resident fish, and 
endangered and threatened species.
    <bullet> LOur reservoirs accommodate 90 million visits a year at 
more than 300 recreation sites.
    All indications are that this year is shaping up to be a very dry 
year in many regions of the west, particularly in the Pacific 
Northwest. A below normal water inflow to Reclamation facilities means 
that water deliveries, power production and environmental requirements 
will have to be carefully balanced to satisfy to the greatest extent 
possible multiple project purposes.
Project Operations
    In addressing future water needs Reclamation must continue to 
operate and maintain our projects, in accordance with all applicable 
Federal laws and regulations, state water rights and interstate 
compacts and judicial decrees, and our contractual commitments to 
irrigators and other project water users. At the same time the 
Secretary of the Interior must fulfill tribal trust responsibilities 
and the United States international treaty obligations with Mexico and 
Canada,.
    Balancing water supply and hydro power demands with environmental 
and other obligations is an increasingly complicated and difficult task 
which at times requires some reductions either in the water supplies 
available to our contractors or in the power which we are able to 
generate. More often than not, however, we are able to find middle 
ground which enables us to fulfill all of our obligations.
Enhancing the Efficiency of Use of Already Developed Water Supplies
    New dams and reservoirs will probably be developed in the West in 
the years ahead only on a limited basis. Accordingly, increasing the 
efficiency of use of the water supplies which have already been 
developed will be a vital part of the West's future. I would like to 
highlight a few of the ways in which Reclamation is contributing in 
this regard.
    Water Conservation. Water conservation is a key tool in expanding 
existing water supplies. As the 1998 Report of the Western Water Policy 
Review Advisory Commission said, Water conservation, or improved 
efficiency of use, can have many benefits and should be the first 
approach considered for extending or augmenting available supplies.
    The Reclamation Reform Act directs Reclamation to encourage water 
conservation and directs water districts receiving irrigation water to 
develop conservation plans. Some districts have employed state of the 
art conservation technology, including drip irrigation. Drip systems 
deliver water directly to individual plant roots, thereby eliminating 
evaporation and saving water and energy.
    Through our Water Conservation Field Services Program, we provide 
water districts with technical and financial assistance to develop 
effective water conservation plans. While Reclamation has a role to 
play in water conservation, there also are opportunities for state and 
local entities to offer incentives through rate restructuring, low 
interest loans for farmers to install more efficient irrigation 
facilities, and rebates for installation of efficient appliances, 
landscaping retrofits, and toilets.
    Water Reuse. Recycled water is used for a variety of purposes, 
including agricultural and landscape irrigation, ground water recharge, 
and industrial cooling. Reclamation's water reuse program assists 
western cites in enhancing their water supplies by providing funds for 
the 25 projects authorized under Title XVI of Public Law 102-575, as 
amended. Since 1992, the Congress has authorized water reuse projects 
in the states of California, Nevada, Utah, New Mexico, Texas, Arizona, 
and Oregon. Non-Federal cost sharing partners pay at least 50 percent 
of the feasibility study costs and 75 percent of the construction 
costs. Total Federal costs for the 25 authorized projects is estimated 
at $600 million. To date, approximately $205 million has been made 
available in Federal assistance.
    These projects are in various stages of planning, design and 
construction but all are estimated to be completed by 2012. Upon 
completion, they are expected to yield an additional 494,000 acre feet 
water for beneficial use.
Addressing an Aging Infrastructure
    Having dependable supplies of water and power also requires that 
the infrastructure which Reclamation has developed over the past 
century be properly maintained. Approximately 50 percent of 
Reclamation's dams were built prior to 1950 and about 90 percent were 
constructed before current state-of-the-art design and construction 
practices were in place. Given our aging infrastructure, sustaining an 
appropriate level of annual maintenance of existing facilities, and 
making safety of dams modifications as required and on a timely basis, 
are critical to protect public safety and property and to ensure that 
the benefits of Reclamation's projects can continue to be realized.
    As with our dams and water delivery systems, Reclamation's 
powerplants must also be maintained in a constant state of readiness. 
Again, sustained maintenance, and replacement and modernization of 
equipment and machinery over time, are critical to the readiness of our 
hydro power system.
    In the face of the energy problems being experienced on the West 
coast, I would like to assure the Subcommittee that Reclamation is 
generating all of the electricity which it possibly can at this time. 
While we presently have some units down for planned maintenance, this 
is not affecting our ability to generate. This is because we have only 
enough water in our various reservoir systems to run the generators 
which are on line.
Facilitating Voluntary Water Transfers
    Approximately 85 to 90 percent of the water consumed in the West is 
devoted to irrigated agriculture. In the face of rapid urbanization, 
the changing economics of farming, and the need to strike a balance 
with the appropriate protection of environmental values, voluntary 
transfers of water from willing agricultural sellers to willing buyers 
is one means by which the future water needs of the West will be 
addressed.
    The Assistant Secretary for Water and Science approved Principles 
Governing Voluntary Water Transactions That Involve or Affect 
Facilities Owned or Operated by the Department of the Interior (the 
1988 Principles) on December 16, 1988. Within the framework provided by 
the 1988 Principles, Reclamation has been, and continues to be, 
supportive of voluntary transfers and conversions of project water in 
accordance with State and Federal law from existing to new uses. In 
this regard, Reclamation has issued polices which supplement and expand 
upon the 1988 Principles insofar as those principles pertain to 
transfers of project water.
    The 1988 Principles also pertain to the use of excess capacity in 
Reclamation projects for the storage and conveyance of non-project 
water. Within the framework provided by the 1988 Principles, 
Reclamation has issued policies which address making excess capacity 
available under appropriate circumstances to assist in improving the 
management of the West's water resources.
Conclusion
    Finding ways to meet water needs presents a great challenge for 
Reclamation and western communities. We look forward to working with 
the Subcommittee and with all water users and the interested public to 
develop ways to meet competing demands. Thank you for the opportunity 
to participate in today's hearing.
                                 ______
                                 
    Mr. Calvert. Our next witness is Dr. Robert Hirsch, the 
Associate Director for Water for the U.S. Geological Survey.
    Dr. Hirsch, you may begin your testimony.

 STATEMENT OF ROBERT M. HIRSCH, ASSOCIATE DIRECTOR FOR WATER, 
       U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Hirsch. Good afternoon, Mr. Chairman and members of the 
Subcommittee.
    Thank you for the opportunity to report on the status of 
water conditions in the Western United States as monitored by 
the USGS.
    I would like to summarize my written testimony at this 
time.
    The USGS Water Resources Program provides reliable, 
impartial, and timely information about the Nation's water 
resources. We work closely with local, State, tribal, and 
Federal agencies and the private sector to provide them with 
the information they need to make informed decisions. In 
particular through our Cooperative Water Program, we partner 
with over 1,300 non-Federal agencies to carry out our data 
collection and hydrologic studies missions.
    For over a century, the USGS has played the key role in 
monitoring the flow of our Nation's rivers. Currently, we 
operate about 7,000 streamgages, and we freely provide the data 
to a wide range of users. This information is used for a 
multitude of purposes, including water supply planning and 
operations, flood risk assessment and warning, water quality 
management, and recreational safety. We are in the process of 
modernizing this network, and at this time, about 5,000 of the 
streamgages have satellite telemetry that enables us to provide 
near-real-time data to all users via the Internet.
    Using these data, I will describe the current Western 
surface water situation and changes that have occurred in 
recent weeks and also place this in a national context. The 
illustration I have here gives an indication of that.
    I will rely on this illustration, which is one that we 
create daily and place on the USGS web site. It is based on 
conditions for the preceding week at all USGS streamgaging 
stations that have 30 or more years of record and have 
telemetry systems--about 2,300 stations nationwide. Each dot on 
the map represents an individual streamgage. They are color-
coded, with red indicating where the flows for the week were 
the lowest ever recorded for that time of year, brown 
indicating flow that was below the 10th percentile, orange 
between the 10th and 25th percentile, green indicating normal, 
light blue the 75th to 90th percentile, dark blue above the 
90th percentile, and black representing record high flows for 
that time of year.
    The map that you see in front of you is current as of 
Sunday night of this past weekend.
    Hydrologically, conditions in the West are quite varied at 
the present time. The Southwest is having relatively normal 
conditions, a pattern that we have been observing since last 
November. Most of the Great Plains from the Dakotas to Texas 
are experiencing normal to above normal streamflows; in fact, 
in Eastern Texas, a number of rivers and streams have recorded 
new daily high flows during the past month.
    In contrast, the Pacific Northwest is experiencing below 
normal streamflows in response to winter season precipitation 
that has averaged only 25 to 75 percent of normal.
    The most serious low-flow conditions are occurring in 
Washington and Oregon. Notably, below normal streamflows were 
recorded at 90 percent of our real-time streamgages in Oregon 
last week, and at 75 percent of the streamgages in Washington. 
Conditions have moderated slightly in the last week but not 
enough to be anything close to an end to this drought 
situation.
    The snowpacks in river basins in these States is generally 
less than 60 percent of average this year. The low seasonal 
precipitation and the currently low reservoir storage have 
resulted in spring and summer stream flow forecasts of less 
than 70 percent of average for most areas in Washington and 
Oregon. The outlook for Idaho is even worse, with forecasted 
spring and summer flows of less than 70 percent of average.
    Nearby States, such as Montana and Wyoming, are also 
experiencing low streamflows, snowpack and soil moisture, 
although the dryness is less severe than in the Pacific 
Northwest. Northern California, particularly the Northern 
Sierra Nevada, had relatively dry conditions and low streamflow 
earlier in the winter but has recovered considerably during the 
past month. Currently, reservoir contents are about normal 
across California, as are daily and weekly average streamflows.
    It is worth noting that unlike the current situation in the 
East, in Florida and particularly Western North Carolina, where 
drought has persisted for more than two years and enormous 
moisture deficits have accrued, the dryness in the Northwest is 
only about four months old. Admittedly, it came at the worst 
possible time of year since the region depends on winter season 
precipitation and snowpack to meet the spring and summer water 
demand. Even so, the current situation would have been much 
worse had there not been normal to above normal precipitation 
during the preceding 18 months.
    The streamgaging network measures the pulse of the Nation's 
rivers and enables us to produce a snapshot of conditions such 
as I have used here. We have worked closely with the Congress 
over the last three years on issues relating to the 
modernization and stability of the network, and with the 
support of Congress, we have been able to reverse the decline 
in the network. We are in the process of adding 37 new stations 
and reactivating 73 others this year.
    Modernization of our ground water level monitoring has not 
progressed to the point where we can provide the same kind of 
synoptic view of ground water conditions as we presented here 
today for surface water. However, we believe that the science 
of ground water hydrology is crucial to water management in the 
West and nationwide. Conjunctive use of surface and ground 
water has great potential for making water supplies more 
drought-resistant. Ground water is crucial to sustaining 
streamflow and temperature conditions for habitat and for water 
supply. We believe that ground water technologies such as 
artificial recharge, aquifer storage and recovery, and recharge 
of reclaimed wastewater, are pivotal parts of the water 
management equation.
    The science to support the use of these new technologies is 
a part of our strategic plan for the future of USGS ground 
water science.
    I thank the Subcommittee for this opportunity to testify 
and look forward to answering your questions today and working 
with you over the coming months and years.
    Mr. Calvert. Thank you for your testimony.
    [The prepared statement of Mr. Hirsch follows:]

   Statement of Robert M. Hirsch, Associate Director for Water, U.S. 
             Geological Survey, Department of the Interior

    Good afternoon, Mr. Chairman and Members of the Subcommittee, thank 
you for the opportunity to report on the status of water conditions in 
the Western United States as monitored by the U.S. Geological Survey 
(USGS). Because this is the first appearance of the USGS before this 
Subcommittee in the new Congress and before you as Chairman, allow me 
to start with a few preliminary thoughts about the role of the USGS.
    The USGS is a science agency within the Department of the Interior 
with a history of 122 years of providing scientific information needed 
for the wise management of our Nation's natural resources. The study of 
water goes back to our very early years and the work of our second 
Director John Wesley Powell who focused much attention on the 
availability of water resources for the economic development of the 
West. The USGS of today consists of four major program areas: Geology, 
Mapping, Biology, and Water. The USGS strives to combine these four 
disciplinary areas to provide a more complete data and analysis of the 
resource and environmental issues that our Nation faces today.
    The USGS water resources program provides reliable, impartial, 
timely information that is needed to understand the Nation's water 
resources.
    It is crucial to note that the USGS provides unbiased science to 
resource and regulatory decision makers. We work closely with local, 
State, tribal, and Federal agencies, and the private sector to provide 
them with the information they need to make informed decisions. Of 
particular interest to the Committee may be our Cooperative Water 
Program, through which we partner with over 1300 non-Federal agencies 
to carry out data collection and hydrologic studies.
    For over a century the USGS has played the key role in monitoring 
the flow of our Nation's rivers. We operate about 7000 streamgages, 
which monitor the flow of water in our Nation's rivers and streams, and 
we freely provide the current and historical data to a wide range of 
users. This information is used for purposes that include: water supply 
planning, flood risk assessment, water quality management (including 
calculation of Total Maximum Daily Loads), water supply operations, 
streamflow forecasting (done primarily by the National Weather Service 
and the Natural Resources Conservation Service), habitat assessments, 
and personal planning of river-based recreational activities. 
Currently, we are in a process of modernizing this network. At the 
present time, about 5000 of these stations have satellite telemetry 
that enables us to provide near-real-time data to all users via the 
Internet.
    Using these data, and information from other agencies, I will 
describe the current Western surface-water situation, variations and 
changes that have occurred in recent weeks and also place this in a 
national context. To do this I will rely on an illustration that we 
create daily and place on the USGS website. It is based on conditions 
for the preceding week at all USGS streamgaging stations that have 30 
or more years of record and have telemetry systems. Each dot on the map 
represents an individual gage. They are color coded with red indicating 
that flows for the week were the lowest ever recorded for that time of 
year, brown indicating that flow was below the 10th percentile, orange 
was between the 10th and 25th percentile, green indicates normal (25th 
to 75th percentile), light blue is 75th to 90th percentile, dark blue 
is above the 90th percentile, and black represents record high flows 
for this time of year.

[GRAPHIC] [TIFF OMITTED] T1352.003

    Hydrologically, conditions in the West are quite varied at the 
present time. The Southwest is having relatively normal conditions, a 
pattern that we have been observing since last November. Most of the 
Great Plains, from the Dakotas to Texas are experiencing normal to 
above-normal streamflows; also a persistent pattern during recent 
months. In eastern Texas, a number of rivers and streams have recorded 
new daily high flows during the past month, while flood flows have been 
observed at many others.
    In contrast, the Pacific Northwest is experiencing below-normal 
streamflows in response to winter season precipitation that has 
averaged only 25 to 75 percent of normal. Currently, 75 percent of USGS 
real-time streamgages in this region are reporting below-normal flows.
    The most serious low flow conditions are occurring in Washington 
and Oregon. Notably, below normal streamflows were recorded at 90 
percent of our real-time stations in Oregon last week and at 75 percent 
of the gages in Washington. The snowpack in river basins in these 
States is generally less than 60 percent of average. There are also 
significant deficiencies in reservoir storage. Statewide, the useable 
contents of reservoirs in Washington are about 50 percent of average, 
while those in Oregon are only slightly better at 75 percent of 
average. The low seasonal precipitation and the currently low reservoir 
storage have resulted in spring and summer streamflow forecasts of less 
than 70 percent of average for most areas in Washington and Oregon. The 
outlook for Idaho is even worse, with nearly the entire State forecast 
to have spring and summer flows of less than 70 percent of average.
    Nearby States, such as Montana and Wyoming are also experiencing 
reduced streamflows, snowpack, and soil moisture, although the dryness 
is less severe than in the Pacific Northwest. Indeed, although the 
useable contents of reservoirs in Montana are about 60 percent of 
average, those in Wyoming are actually above average. Still, more than 
60 percent of the real-time streamgages in both States are reporting 
below-normal flows. Northern California, particularly the Northern 
Sierra Nevada, had relatively dry conditions and low streamflows 
earlier in the winter, but has recovered considerably during the past 
month. Currently, reservoir contents are about normal statewide, as are 
daily and weekly average streamflows.
    It is worth noting that, unlike the current situation in Florida 
and western North Carolina where drought has persisted for more than 
two years and enormous moisture deficits of more than two feet have 
accrued, the dryness in the Northwest is only four months old. 
Admittedly, it came at the worst possible time of year since the region 
depends upon winter season precipitation and snowpack to meet the 
spring and summer water demand. Even so, the current situation would 
have been much worse had there not been normal to above-normal 
hydroclimatic conditions during the preceding 18 months.
    The streamgaging network, that measures the pulse of the Nation's 
rivers (and enables us to produce a snapshot of conditions such as I 
have used here), is a high priority for the USGS. We have worked 
closely with the Congress over the last three years to explore the 
issues relating to the modernization and stability of the network.
    I should also briefly mention the importance of ground water as an 
indicator of drought and as an important aspect of the mechanisms 
available to communities, agriculture, and industry as insurance 
against drought. While our ground-water level monitoring networks have 
not been modernized to a level where we can provide the same kind of 
synoptic view of ground-water conditions as we presented for surface 
water, we anticipate improvements in the next few years. We believe 
that the science of ground-water hydrology is crucial to water 
management in the West and nationwide. Conjunctive use of surface and 
ground water has great potential for making water supplies more drought 
resistant. Ground water is crucial to sustaining streamflow for habitat 
and for water supply. More and more we find that our partners are 
interested in the role that ground water plays in maintaining adequate 
flow and temperature conditions in rivers.
    We also find that emerging technologies such as artificial 
recharge, aquifer storage and recovery, and recharge of reclaimed 
wastewater are pivotal parts of the water management equation. The 
science to support the use of these new technologies is a part of our 
strategic plan for the future of USGS ground-water science.
    I thank the Subcommittee for this opportunity to testify and I look 
forward to answering your questions today and working with you over the 
coming months and years.
                                 ______
                                 
    Mr. Calvert. Our next witness is Mr. Michael Brophy, 
Chairman of the Western States Water Council.
    Mr. Brophy, you may proceed with your testimony.

STATEMENT OF MICHAEL J. BROPHY, CHAIRMAN, WESTERN STATES WATER 
                            COUNCIL

    Mr. Brophy. Thank you, Mr. Chairman, members of the 
Subcommittee.
    My name is Mike Brophy, and I am Chairman of the Western 
States Water Council. I have with me here today Mr. Tony 
Willardson, who is on the Council staff.
    The Council is comprised of representatives appointed by 
the Governors of 18 Western States. The Council is charged with 
fostering interstate cooperation in water resources and 
protecting vital State prerogatives with regard to the 
management of water resources in the West.
    While necessarily expressing my personal views in this 
testimony, I will rely heavily on positions that the Council 
has taken consistent with the request by the Subcommittee, and 
with the leave of the Chair, I will summarize my written 
testimony.
    The Subcommittee has asked that I address the current 
situation of water in the West, particularly from the 
perspective of the Council. This invitation is appropriate 
because States play the pivotal role in both water quantity and 
quality allocation in the Western United States.
    I wish to begin by emphasizing that in the arid West, 
providing adequate water supplies to meet current and future 
demands continues to be the priority. This priority is 
underscored by the current extent of drought in many areas of 
the West. Streamflows in much of the West are expected to be 
less than 70 percent of average, with the entire Columbia River 
Basin expected to prove the second driest year in recorded 
history.
    These drought conditions are a major factor in the current 
energy crisis. Western States are particularly cognizant of the 
water needs of rural communities. They also remain concerned 
about the claims being asserted by Indian tribes to water 
resources and the potential of such claims to disrupt existing 
rights in non-Indian communities, underscoring the desirability 
of cooperative efforts with the tribes and their Federal 
trustee in addressing tribal needs. In this regard, the Council 
has acted with other members of the so-called Ad Hoc Group on 
Indian Water Rights in encouraging the settlement of Indian 
land and water rights claims, particularly with regard to 
identifying an alternative funding mechanism for funding such 
settlements. A recent letter from the Ad Hoc Group further 
explaining this effort is attached to my written testimony.
    The Federal Government also has claims to substantial 
amounts of water in the West on its own behalf given the extent 
of Federal land ownership. These claims are most often 
presented within the context of State general stream 
adjudications, where the water rights of all claimants in a 
given stream system are ascertained. In this regard, this 
Congress should address the inequity that now results from 
exempting the Federal Government from paying any filing fees or 
costs associated with these adjudications. I have attached the 
Council's position which explains our support for a remedy, now 
before Congress in the form of H.R. 705.
    There is significant need for the Federal Government to 
work with States and others in providing reliable water data. 
In particular, as Congress considers the budget, we urge you to 
recognize the serious need for adequate and consistent Federal 
funding to maintain and restore NWCC's SNOTEL System and USGS's 
Cooperative Streamgaging Program, with a primary focus on 
coordinated data collection and dissemination. I have appended 
a position recently adopted by the Council explaining the 
Western States' position in support of these programs. They 
provide vital data necessary for water management and the 
protection of human life and property. The snow measuring 
program and the streamgaging programs are important national 
infrastructure which must be maintained.
    Finally, I wish to reiterate the importance of the long-
held congressional policy of deference to States regarding 
water management. States are moving to address the challenges 
they face in water resources. Federal preemption of State 
authority is not the way to address the complex challenges 
associated with water management in the West. Rather, what is 
necessary is encouraging partnerships between the State and 
Federal agencies in the development and implementation of key 
policies, supporting the pivotal role the States must play in 
addressing these challenges, and affording flexibility for 
ongoing innovation at the State level in order to effectively 
carry out this role.
    Thank you very much. I appreciate the opportunity to 
testify.
    [The prepared statement of Mr. Brophy follows:]

 Statement of Michael J. Brophy, Chairman, Western States Water Council

    My name is Michael Brophy. I am Chairman of the Western States 
Water Council. The Council is comprised of representatives appointed by 
the governors of eighteen western states. The Council has been charged 
with fostering interstate cooperation in water resources and protecting 
vital state prerogatives with regard to the management of water 
resources in the West. While necessarily expressing personal views in 
my testimony, I will rely heavily on positions of the Western States 
Water Council consistent with the request by the Subcommittee. To my 
written testimony, I will also append for the record positions of the 
Council for your reference.
    The Subcommittee has asked that I address the Current Situation of 
Water in the Western United States from the Perspective of the Western 
States Water Council. This invitation is particularly appropriate, 
because states play the pivotal role in both water quantity allocation 
and water quality protection in the West. Further, a recent survey of 
our member states provides a basis for my remarks.
    I wish to begin by emphasizing that in the arid West, providing 
adequate water supplies to meet future demands continues to be a 
priority. This priority is underscored by the current extent of drought 
in many areas of the West. Streamflows in much of the West are expected 
to be less than 70% of average, with the entire Columbia River Basin 
expected to produce the second driest year in recorded history. These 
drought conditions are a major factor in the current energy crisis. 
Western states are particularly cognizant of the water needs of rural 
communities. They also remain concerned about the claims being asserted 
by Indian tribes to water resources and the potential of such claims to 
disrupt existing rights in non-Indian communities, underscoring the 
desirability of cooperative efforts with the tribes and their Federal 
trustee in addressing tribal needs. In this regard, the Council is 
active with other members of the so-called Ad Hoc Group on Indian Water 
Rights in encouraging the settlement of Indian land and water right 
claims, particularly with regard to identifying an alternative 
mechanism for funding such settlements. A recent letter by the Ad Hoc 
Group further explaining this effort is attached to my written 
testimony.
    The Federal Government also has claims to substantial amounts of 
water in the West on its own behalf, given the extent of Federal land 
ownership. These claims are most often presented within the context of 
state general stream adjudications, where the water rights of all 
claimants in a given stream system can be ascertained. In this regard, 
this Congress should address the inequity that now results from 
exempting the Federal Government from paying any filing fees or costs 
associated with these adjudications. I have attached the Council's 
position which explains our support for a remedy, now before the 
Congress in the form of H.R. 705.
    While virtually every western state needs additional supplies to 
meet growing consumptive use demands, western states also recognize the 
need for existing water infrastructure rehabilitation. Further, they 
also recognize as a significant challenge, the need to sustain instream 
values generally, and specifically for maintaining and enhancing water 
quality, and for protecting endangered species. The West is often 
subject to wide swings in water supply. Thus, states identify drought 
planning and response as a priority problem, and similarly flag flood 
planning and response. Overlaying many of the above challenges are 
legal and institutional conflicts facing western states, involving 
Federal/state relationships, conflicts between states, and disputes 
among water users, among others.
    To meet these increasing demands, several states are considering 
additional surface reservoirs, which, for the most part, will be 
smaller in scale than the large projects of the past, more innovative, 
environmentally sensitive, and financed primarily from state and local 
resources. The reallocation of water from existing uses to other uses 
will likely accelerate, chiefly from agricultural uses to other uses, 
primarily municipal. While states will often facilitate such transfers 
to meet specific water supply and environmental challenges, in some 
cases they may restrain market transfers, not only to protect third 
parties, but also the public interest in general.
    While recognizing the limits of water conservation in providing new 
water and additional caveats relating to the site-specific impacts of 
water conservation measures, states are carefully considering 
opportunities to stretch existing supplies of water through more 
efficient use, reuse, and reservoir reoperation (prior to the 
development of new storage facilities). States are further exploring 
opportunities to cost-effectively manage ground water recharge, 
recognizing it as a potentially significant storage alternative, and 
some states are further pursuing the potential of desalinization and 
weather modification to augment existing supplies.
    As the emphasis on the importance of water conservation increases, 
states are developing and adopting a number of programs to encourage 
such measures as low water-use landscaping, and water rates that 
encourage conservation in urban areas, and development of conservation 
plans and incentives and leak detection programs in rural/agricultural 
settings. The reuse of wastewater effluent is also increasing. Many 
communities are currently reusing effluent for landscape and 
agricultural irrigation. To facilitate a reallocation of existing uses 
to augment supplies in areas of relative scarcity, some states have 
established water banks, while others have adopted measures to 
streamline the transfer process.
    Western states have made innovations in their laws and institutions 
in order to augment and protect instream flows and to incorporate 
consideration of the public interest in their water right application 
and transfer processes. States are also endeavoring to incorporate 
innovations in their water quality programs, particularly regarding 
non-point source pollution. States have adopted various measures to 
deal with the problem of ground water depletion. States have also 
strengthened their capacity to deal with floods and drought. 
Innovations to improve information on water availability and use are 
common.
    States in the West have recognized and moved to enhance the 
potential value of local watershed coordination initiatives. As 
conflicts over water use intensify in an era of both increasing and 
changing demands, states are also addressing the need to deal more 
effectively with these disputes. For a variety of reasons, states are 
also increasing their emphasis on maintaining and enhancing the 
environment. These reasons include, but are not limited to, Federal 
mandates such as the Endangered Species Act and the Clean Water Act.
    Given the diminishing Federal resources available to carry out the 
requirements of these and other Federal acts, and the concurrent 
increase in the state burden for environmental protection, states urge 
that increased flexibility be given regarding their implementation, so 
that states and others can tailor programs and prioritize resources to 
meet real needs. Streamlining Federal permit processes is also 
important. The Federal Government should encourage innovations, which 
frequently involve market incentives and non-regulatory tools, as they 
have often been found to work more effectively than top-down 
regulation. The Council has, for example, urged flexibility in 
implementing the Total Maximum Daily Load program under the Clean Water 
Act. Further, the Federal Government continues to have an important 
role with regard to disaster response and other mitigation associated 
with droughts and floods.
    There is a significant need for the Federal Government to maintain 
and rehabilitate its existing water storage infrastructure, and to work 
with states and others in providing reliable water data. In particular, 
as Congress considers the budget, we urge it to recognize the serious 
need for adequate and consistent Federal funding to maintain, restore, 
modernize, and provide for targeted expansion of NWCC's SNOTEL System 
and Soil and Climate Analysis Network (SCAN), and USGS's Cooperative 
Streamgaging Program and National Stream Information Program, with a 
primary focus on coordinated data collection and dissemination. I have 
appended a position recently adopted by the Council explaining the 
western states position in support of these programs.
    Finally, I wish to reiterate the importance of the long-held 
Congressional policy of deference to states regarding water management. 
States are moving to address the challenges they face in water 
resources. Federal preemption of state authority is not the way to 
address the complex challenges associated with water management in the 
West. Rather, what is necessary is encouraging partnerships between the 
state and Federal agencies in the development and implementation of key 
policies, supporting the pivotal role states must play in addressing 
these challenges, and affording flexibility for ongoing innovation at 
the state level in order to effectively carry out this role. Thank you.
    Position No. 231 (See also No. 219) adopted November 14, 1997
  resolution of the western states water council regardingfederal non-
                  tribal fees in general adjudications
Grand Junction, Colorado

October 20, 2000 (revised and reaffirmed)

    WHEREAS, states must conduct lengthy, complicated and expensive 
proceedings to establish the relative rights to water in water rights 
adjudications; and
    WHEREAS, Congress recognized the necessity and benefit of requiring 
the United States claims to be adjudicated in these state adjudications 
by adoption of the McCarran Amendment; and
    WHEREAS, those claiming and establishing their right to water, 
including Federal agencies, are the primary beneficiaries of 
adjudication proceedings by having the states officially quantify and 
record these water rights; and
    WHEREAS, the courts have determined that under the McCarran 
Amendment the United States need not pay fees for processing Federal 
claims; and
    WHEREAS, the Federal claims are typically among the most 
complicated and largest of claims in state adjudications; and
    WHEREAS, if the United States does not pay a proportionate share of 
the costs associated with adjudications, the burden of funding the 
proceedings unfairly shifts to the state and other water users and 
often delays completion of the adjudications by depriving the states of 
the resources necessary to complete them; and
    WHEREAS, delays in completing adjudications result in inability to 
protect private and public property interests or determine how much 
unappropriated water may remain to satisfy important environmental and 
economic development priorities.
    NOW THEREFORE BE IT RESOLVED that the Western States Water Council 
again ask the Congress to recognize that requiring states and private 
users to fund processing of Federal, non-tribal claims in water rights 
adjudications unfairly shifts the burden of funding these proceedings 
away from the parties who derive the greatest benefit from the 
proceeding and effectively establishes an unfunded mandate; and
    BE IT FURTHER RESOLVED that the Council continue urging Congress to 
pass legislation narrowly tailored to establish that the United States, 
when a party to a general adjudication shall be subject to fees and 
costs imposed by the state to conduct the proceedings to the same 
extent as private users.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1352.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1352.002
                                 
    Mr. Calvert. Thank you for your testimony.
    We will now begin questions, and we have a 5-minute rule. I 
will begin the questioning, and we will alternate between 
majority and minority.
    Mr. McDonald, currently, the Bureau is facing a $5 billion 
backlog and potentially up to $7 billion in new project needs 
in the next several years. How are you proposing to move these 
projects forward with your limited budget?
    Mr. McDonald. It is true, Mr. Congressman, that there is a 
considerable number of authorized new projects, particularly in 
the last two or three years, as you noted. We certainly 
evaluate carefully as we put our budget request together what 
we think the relative priorities of funding needs are.
    I can assure you that our first priority is to maintain and 
operate the existing infrastructure along the lines that I 
testified to and then, within the budget constraints we face, 
to identify the priorities for additional work that might be 
possible. Obviously, the particulars await the release of the 
President's budget request in a couple of weeks.
    Mr. Calvert. You mentioned in your testimony that the 
Bureau's infrastructure is aging.
    Mr. McDonald. Yes, sir.
    Mr. Calvert. In what ways will the dams, canals, and other 
waterway delivery systems be affected by this and our future 
reliability for water?
    Mr. McDonald. Our view, Congressman, is that as long as we 
invest in the appropriate operation, maintenance, and 
rehabilitation of these facilities, they will be reliable for 
decades to come. There is no reason for them to ever arrive at 
a physical condition where they are not reliable in providing 
sustainable supplies.
    Mr. Calvert. Are there any specific projects out there that 
show any potential for problems in the immediate future?
    Mr. McDonald. There certainly are projects that we have 
lined up in our respective operation and maintenance priority 
systems and in our dam safety program that we are looking 2, 3, 
4 years down the road for funding requirements in order to 
carry out the appropriate level of activity.
    Mr. Calvert. Specifically, are any of these threatening the 
immediate water supply in the next several years?
    Mr. McDonald. Not that I am aware of, no, sir.
    Mr. Calvert. Last year, the Bureau sent legislation to 
increase funding for dam safety, which we passed, but the 
Senate did not act on, which is not surprising around here. 
What is the status of dam safety legislation, and will the 
Bureau be sending it again to Congress?
    Mr. McDonald. In our judgment, Mr. Chairman, we have an 
adequate authorized ceiling with the amount that was included 
in the appropriations bill for this year to handle our dam 
safety program through this fiscal year; but it is our judgment 
that we will need additional authority before the end of this 
calendar year so that we can continue on into Fiscal Year 2002. 
The four projects that would be affected in Fiscal Year 2002 
are Deadwood Dam in Idaho, Grassy Lake, and Glendo Dams in 
Wyoming, and Warm Springs in Oregon, and we will need an 
increased ceiling to proceed in Fiscal Year 2002 with those. 
Until we have a new commissioner, I do not know that the new 
administration will have an opportunity to entertain dam safety 
legislation proposals, but certainly it is a matter that we 
will bring to the attention of the new commissioner at the 
earliest opportunity.
    Mr. Calvert. This is one of my last questions to you, and 
you could probably take the rest of the day to answer it, but 
in what ways is the Bureau of Reclamation planning for meeting 
the growing water demand in the West?
    Mr. McDonald. I think that to conserve time, I will 
emphasize three things. First, as I testified to, we think 
there is a place in the future of water management in the West 
for voluntary transfers between willing sellers and buyers.
    Secondly, we are certainly working with States, watershed 
organizations, local districts, Indian tribes and others in 
planning activities, particularly in a watershed ecosystem 
context, that deal with the whole range of competing water 
supply needs.
    Finally, I would emphasize that investing in applied 
science and technology to develop products that enhance water 
user flexibility to address future challenges is very much part 
of that planning process.
    Mr. Calvert. How about surface water storage sites--did you 
mention any of those?
    Mr. McDonald. We certainly have an authorization from 
Congress for the Animas-La Plata project and would hope to move 
forward with that. Beyond that, I cannot think of any new 
authorizations that we have.
    Mr. Calvert. Are you looking at identifying future 
potential storage sites in the West?
    Mr. McDonald. I am aware of some of our planning studies 
that do identify new sites, yes, sir.
    Mr. Calvert. In what areas has the Department of 
Reclamation coordinated with State and Federal agencies to plan 
for droughts?
    Mr. McDonald. Our authorities for drought, Mr. Chairman, 
are under the Reclamation States Emergency Drought Relief Act 
of 1991. It essentially provides us with two authorities--first 
of all, an authority to provide financial and technical 
assistance for development of drought contingency plans. We 
have had agreements and done that with Arizona, Hawaii, New 
Mexico, Oklahoma, Utah, and a number of Indian tribes, and then 
in the face of a natural drought, we have some limited 
authority to construct temporary facilities and to deal with 
management practices through the duration of the drought.
    Mr. Calvert. Thank you. I will have another round and will 
be coming back to you all.
    Ms. Solis, would you like to ask some questions?
    Ms. Solis. Thank you, Mr. Chairman.
    I was curious--you mentioned that there were some plants 
that were down, but it was not affecting hydroelectricity in 
the State of California. Which plants were you talking about, 
specifically?
    Mr. McDonald. In the course of normal maintenance, 
Congresswoman, we have two units out of 26 in the Upper 
Colorado Region system. One of those is at Glen Canyon Dam, one 
is at Blue Mesa in Colorado. In the Lower Colorado Region, we 
have six units out of 28 units down; three of those are at 
Hoover, a couple more upcoming at Hoover--they are not down 
right now, but they are scheduled for maintenance in the next 
few weeks--and then, there is a unit down at Davis and one up 
for testing.
    We will have all of those back up on line, generally 
speaking, between the 5th of April and the 31st of May, and 
again, the fact that those units are down has in no way 
affected generation and capacity, because the ones that are up 
and running can take more than the water that is available to 
run through them at this current time.
    Ms. Solis. It still does not solve our problem.
    Mr. McDonald. It does not; I understand.
    Ms. Solis. Just a last question. In reading your testimony, 
I know you did not read everything, but regarding the 
Reclamation Reform Act and trying to encourage water 
conservation, how far along would you say we are with actually 
advancing that technology? You mentioned drip irrigation, 
conservation technology. How far along are we, and what do we 
need to do to help move those farmers along?
    Mr. McDonald. I think that in the last 5 or 10 years, there 
has been considerable progress. Organizations like the Western 
States Water Council, which is here to testify in the form of 
Mr. Brophy, are working with other Federal agencies, working 
with individual districts, we have had some very successful and 
innovative programs in the last several years, and I am 
personally finding a lot of excitement in the irrigation 
community because a lot of these improvements make financial 
sense to the farmer--that is what their interest in it is--as 
well as all the environmental and agricultural benefits that it 
has.
    Ms. Solis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, Ms. Solis.
    Mr. Osborne?
    Mr. Osborne. Thank you, Mr. Chairman.
    Thank you for being here today. I appreciate it.
    I have a fairly general question. I notice that with our 
current situation, it appears that perhaps additional storage 
is needed in the West; yet I also know that there are certain 
interests that would do away with dams altogether. I was 
interested in where you feel the equilibrium is. Is there a 
possibility of increasing storage at this point, or is the 
political climate such that it makes it difficult to do 
anything new?
    Mr. McDonald. My personal view, Congressman, is that it is 
certainly not out of the realm of possibility that there will 
be new dams and storage reservoirs constructed in the future. I 
do not think there is any doubt that that will happen. I think, 
however, that it will be done on a very selective basis, and it 
will be done as a suite of water management activities not to 
the exclusion of improvements in efficiency of use, transfers 
among existing users, and that kind of thing.
    Mr. Osborne. Thank you.
    I have a question for Mr. Hirsch. There were a couple of 
terms in your testimony that I was not aware of. You mentioned 
``artificial recharge'' and ``aquifer storage.'' Could you 
amplify on those a little bit, because they caught my 
attention, but I did not know exactly what they were.
    Mr. Hirsch. Yes. Artificial recharge is any attempt by 
humans to increase the rate at which water enters the ground 
water system, enters into an aquifer. This can involve 
spreading water on the surface; it can be putting water into a 
streambed that might otherwise be dry. This may be wastewater, 
it may be water collected in some manner to supplement water 
supply.
    Aquifer storage and recovery is one very specific 
technology of artificial recharge where one in fact injects 
water into an aquifer--at times when there is a lot of water 
available and a rainy season, let us say--injects it into the 
aquifer and then withdraws it from the very same well during a 
dry period.
    These technologies are widely in use in Southern 
California, in Florida, in Arizona, and in a number of other 
very arid parts of the country, although I think their use is 
spreading. There is a whole host of scientific questions about 
their efficacy, and it is an area that we have been working on, 
but it is of interest to note that particularly in places like 
the Everglades or in CALFED, two major ecosystem restoration 
programs around the country, these technologies have been 
proposed as a major aspect of the restoration plan.
    Mr. Osborne. Thank you.
    Mr. McDonald, I have a question regarding your statement 
that 85 to 90 percent of the water consumed in the West is 
devoted to irrigation, and with the needs of municipalities and 
other needs, there might be transfers of water. Do you see the 
amount of irrigated acres eventually decreasing, either 
voluntarily or involuntarily, or do you feel that we can 
maintain the present amount of irrigation that we now have and 
still maintain the municipal needs that are developing?
    Mr. McDonald. My personal judgment would be that the 
economics of irrigated agriculture are such that there will be 
a small decline over time. I think relatively speaking, though, 
that what we need to keep in mind is that a very small 
reduction in the agricultural sector can support a vastly 
increased population, so I think they are relatively minor 
marginal changes, and I think they are going to be ones which 
are accommodated in the context of State law and willing 
sellers who desire to go out of business.
    Mr. Osborne. Is there any difficulty transferring water--
are you talking about from one drainage to another, or simply 
water within a drainage allocated to different usages?
    Mr. McDonald. Throughout the West, I have seen examples of 
both, where the proposed retirement of agriculture would result 
in a diversion from one basin to another basin. I have also 
seen examples that are within a basin. All, of course, are 
subject to State law; that will be the principal guiding 
institutional mechanism under the State's water rights systems.
    Mr. Osborne. Thank you very much. No further questions, Mr. 
Chairman.
    Mr. Calvert. Thank you, Mr. Osborne.
    Ms. Napolitano?
    Ms. Napolitano. Thank you, Mr. Chairman, and I certainly 
thank you for bringing the agencies here to speak to such a 
great and pertinent issue for California--water.
    I have several questions. First of all, the U.S. Geological 
Survey Water Resources Division has a monitoring tool which is 
vital in drought prediction. I want to be sure that we get a 
copy of something of that nature. I am not quite sure who has 
it, and I would like to see what it says, because in 
California, we went through a drought 8 or 10 years ago, and it 
was not a nice thing. So I think we need to be sure that we are 
living up to some of the things that were recommended and that 
we are doing the best that we can. I am not sure if I can get 
it, and I am sure other members would be interested in seeing 
that--
    Mr. Calvert. We will ask for any documentation like that to 
be submitted to us, and we can distribute that to the members.
    Ms. Napolitano. Thank you. The other question of Mr. Hirsch 
is on the streamgaging network. Do you feel that the 
Administration is going to continue to support adequate funding 
for the program itself to at least give the communities warning 
outlooks across the Nation?
    Mr. Hirsch. I think we have to wait for the President's 
budget to come out to see what the status of that is.
    Ms. Napolitano. What is going to be your proposal, or what 
has it been?
    Mr. Hirsch. The Administration needs to come forward; we 
need to simply see what the Administration's proposal is, which 
will come out in the next two weeks.
    Ms. Napolitano. Okay, but you are not proposing either full 
funding or anything of that nature?
    Mr. Hirsch. We have been interacting with many, many 
stakeholders on the issue of streamgaging, which has been of 
great interest. We have had requests for congressional reports 
to the Congress by the Appropriations Committee. So we have 
gone on record a number of times describing what we think is 
needed for the Nation from a flood warning and water management 
and scientific standpoint and have had a series of stakeholder 
meetings, including one just recently out in the West with some 
of the State engineers, where we have described our long-term 
plans and objectives for a national streamgaging program. We 
would be happy to share that information with you.
    Ms. Napolitano. Mr. Chairman, may I ask that that 
information be submitted to the Committee?
    Mr. Calvert. Without objection.
    Ms. Napolitano. Mr. McDonald, what is the status of the 
Southern California Regional Water Recycling Study? That is of 
vital interest to me and others because of the great amount 
that has already been done in recycling with the different 
entities that I serve. If we had the study--I do not know when 
it is coming out, I do not know the status of it--I would like 
to have your answer to let us know when we can expect it.
    Mr. McDonald. Off the top of my head, Congresswoman, I am 
sorry that I do not remember the particulars. I would be glad 
to respond promptly through the record within a day or two, if 
I may.
    Ms. Napolitano. I would also like to have that submitted to 
this Committee.
    Mr. McDonald. That is fine; I would be glad to.
    Ms. Napolitano. Mr. Chairman, that is a recycling study 
that has been pending for a while.
    Mr. Calvert. Without objection.
    [Information furnished by Mr. McDonald follows:]

    The Southern California Comprehensive Study is being finalized and 
will be transmitted to Congress as soon as it receives approval from 
the Secretary of the Interior and the Office of Management and Budget.
                                 ______
                                 
    Ms. Napolitano. And the last point that I wanted to ask 
about was on the Desalinization Act of 1996, which is going to 
be ending, or at least, that is my report--authorization for 
the program expires at the end of the fiscal year. Are we going 
to see any implementation of something that will take care of 
the desalinization, especially on Government lands? Are we 
expecting that it will be reestablished, refunded, reenacted--
anybody?
    Mr. McDonald. It is correct, Congresswoman, that the 
authorization for the program is expiring. Again, that is the 
kind of thing that Reclamation will be bringing to the 
attention of the new commissioner and new assistant Secretary 
as soon as they are appointed.
    Ms. Napolitano. And the refunding is going to be one of the 
recommendations?
    Mr. McDonald. I am not in a position to comment as to what 
we will recommend or not, but it will certainly be on the list 
of expiring authorizations that we will bring to the attention 
of the new administration.
    Ms. Napolitano. In other words, you do not have an answer.
    Mr. McDonald. We do not have a position yet; that is 
correct.
    Ms. Napolitano. Mr. Chair, I am not quite sure where we 
stand on desalinization or on the extension of that. I 
certainly would like to have the Committee take a look at it 
and see if it warrants our support to be able to urge the 
Administration for either a new enactment or an expansion of 
that Act.
    Mr. Calvert. It is something that I am certainly interested 
in, and I will be happy to work with the gentlelady on that.
    Ms. Napolitano. Thank you, sir.
    Mr. Calvert. Thank you.
    Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman.
    Let me include my voice in the choir thanking you for 
bringing these issues before us today.
    I would like to start my questioning with Mr. Brophy from 
the Western States Water Council. Mr. Brophy, we in Idaho have 
been struggling with the permitting process. After we get a 
permit from the U.S. Fish and Wildlife Service on certain 
adjudication of water permits in the Upper Snake in Idaho, we 
turn around and have to go through another permitting process 
with the National Marine Fisheries Service, or vice versa--it 
depends. And then we find ourselves having to go through 
another process with FERC.
    Does your organization have any enthusiasm for trying to 
streamline this process, perhaps having a single agency to go 
to and perhaps time period within which they have to respond?
    Mr. Brophy. Thank you, Congressman Otter.
    Western States Water Council has been very interested in 
streamlining the various permitting processes that States have 
to go through. It is a constant complaint from State engineers 
and from water rights holders and others that they are put 
through one permitting program and then another. We have never 
taken a position on actually putting all permitting programs 
together, but we have consistently supported streamlining 
permitting processes and looking for innovative ways to get 
through the permitting process.
    Mr. Otter. As a follow-up question, in your estimation, if 
I were to introduce two bills, one using the legislative 
oversight to repeal the authority given to all other Federal 
agencies, and another giving one agency the authority to issue 
an across-the-board permit on water use and adjudication, whom 
would that surviving agency be? Do you have an opinion on that?
    Mr. Brophy. My personal opinion would be that it would be 
the Bureau of Reclamation, but I am sure there would be many 
others who would have other opinions.
    Mr. Otter. We will get to those opinions later.
    Mr. Hirsch, do you think that irrigation is in fact a way 
to recharge the aquifers?
    Mr. Hirsch. Indeed irrigation does recharge aquifers in 
most cases. In the High Plans, for example, after a decade or 
two, if time elapses between the application of the water, that 
water does in fact reach the water table. Now, that does not 
mean there is not a continued decline, but in fact it does 
reach the water table, and we find that in many, many areas 
that receive surface area irrigation, those aquifers are being 
recharged in that process.
    Mr. Otter. And, in fact, haven't we seen a decline in 
recharging the aquifers from surface irrigation as a result of 
sprinkler and high-technology irrigation, like drip systems and 
those sorts of things as opposed to gravity flow?
    Mr. Hirsch. I think that that is correct. We certainly see 
that as the amount of water applied gets more and more 
accurately tailored to the amount of evapotranspiration 
required to growth the plans, there is less and less recharge 
to the aquifer.
    Mr. Otter. Thank you very much, Mr. Hirsch.
    Mr. McDonald, have we had some major failure problems at 
Arrowrock Dam?
    Mr. McDonald. No, sir. Nothing has failed, although the 
five sluiceways at the bottom of the dam have, due to 
cavitation problems downstream from the gates, been inoperable 
since 1987, and of the 10 ensign valves that are in the middle 
of the dam, we have three locked down because we are concerned 
about their operational safety.
    Mr. Otter. Have you had a failure?
    Mr. McDonald. Nothing has failed as such in the sense of 
blowing out or being knocked out.
    Mr. Otter. In fact we have not had a loss on pressure or 
water, or it has not become dangerous?
    Mr. McDonald. It is a situation that is not safe, 
Congressman. We are in a position where the ensign valves, were 
they to get stuck either in the open position or in the closed 
position--
    Mr. Otter. Have they been stuck?
    Mr. McDonald. They have, yes, sir.
    Mr. Otter. How many times?
    Mr. McDonald. I do not know for sure, but--
    Mr. Otter. Yet since 1987, we have not used them?
    Mr. McDonald. No--we have operated the ensign valves.
    Mr. Otter. Successfully?
    Mr. McDonald. Some of them successfully, some of them not; 
that is why three are locked down.
    Mr. Otter. So tell me why the Bureau of Reclamation chooses 
a drought here, in a year when we already know that Arrowrock 
and the south fork of the Boise River and Anderson Ranch, that 
we are now going to draw down those dams in order to fix those 
valves?
    Mr. McDonald. Actually, ironically, a drought is the best 
time to do the work at this dam, because we would otherwise 
have to waste the water and draw the dam down so we could get 
at the valves. As you may understand, Congressman, they are on 
the upstream face of the dam, that is to say they are 
underwater, and to repair them, we would have to pull the dam 
down.
    Mr. Otter. So we are not going to have to pull it down?
    Mr. McDonald. We will not have to pull it down to 
wastewater; it is going to automatically get pulled down in 
this drought year so that we can deliver our contract supplies.
    Mr. Otter. Thank you.
    Mr. Calvert. Thank you, Mr. Otter.
    Mr. Smith?
    Mr. Smith of Washington. Thank you, Mr. Chairman, for 
assembling this panel and holding this hearing today on such an 
important issue.
    I confess that jurisdictionally, I am still sort of sorting 
through who is in charge of what when it comes to water. I know 
there are lots of hands involved in terms of regulations and 
permitting process and all that. But since you three are here, 
I will ask you.
    As has been discussed here, we have quite a problem with 
our water supply in the Pacific Northwest this year, 
exacerbated by a number of factors; and beyond that, we have 
the energy problem, since we are so dependent on water to 
generate power. As I said, I think it is a real shame in the 
Pacific Northwest that this is the year that we do not have a 
surplus of energy. With California needing it so badly, we 
could do quite well; as it is, we are going to have a hard time 
just keeping up.
    What I am really interested in, though, is the Endangered 
Species Act and how it will affect all of this. There will be a 
number of decisions that EPA is primarily going to have to make 
in terms of how to use the water that may adversely affect 
salmon. I do not know what your knowledge is of the law--I am 
sure there are some environmental groups that will protest 
that--I am wondering how you foresee that coming out in the 
Pacific Northwest this year when we have a situation where, if 
we do not use more water, we may have a rolling blackout 
situation in the BPA region, but on the other hand, to use the 
water could potentially violate the 4(d) rule and some of the 
existing regulations on salmon.
    How does that come out, and how much flexibility do we 
really have to use that water this year with the ESA hovering 
over us?
    Mr. McDonald. I would be glad to try to respond, Mr. Smith, 
since I am the Regional Director of the Bureau of Reclamation 
in the Pacific Northwest and intimately involved in those day-
to-day decisions.
    Fundamentally, of course, we are operating in the Federal 
Columbia River power system, which is 12 dams of the Corps of 
Engineers and two of the Bureau of Reclamation, under the 
current Biological Opinions issued in December of 2000. In a 
drywater year like this, we are operating under the provisions 
in the Biological Opinion that provide exceptions to the 
requirements of the opinion for emergencies. It is the view of 
the Bonneville Power Administration, Corps of Engineers and 
Reclamation that we face such an emergency due to the financial 
uncertainty of the market and the fact that we have less 
capacity available than we should for a reliable system.
    Since approximately the 1st of January, we have essentially 
been operating to produce power. Up until the last week or so, 
that power operation has fortunately matched the requirements 
of salmon, driven principally by the fact that the chum is the 
first salmon species to come back into the mainstem and start 
spawning in November and December. They do so below Bonneville 
Dam and in a couple of the small tributaries below Bonneville. 
They lay their eggs at high water in November, because we were 
generating power at the time, and we have maintained those high 
levels because of power.
    The problems essentially are from this time forward. Under 
the Biological Opinion, we should have refilled reservoirs to 
certain targets by April 10th. The point of those targets for 
refilling is to balance flood control with water in storage so 
that we can have water to release for flow augmentation in the 
spring. We are going to be far, far short of being able to 
refill to the April 10th targets. That will then bring the next 
major issue about which decisions have not been made, and that 
is going to be how far short of the spring flow targets are we, 
and do we spill any water over the Corps of Engineers' 
facilities as opposed to running all water through the turbines 
for power generation.
    The tradeoff fundamentally will then be between spring flow 
targets and summer flow targets. The closer we get to spring 
flow targets, the more we sacrifice storage now, which would be 
to the benefit of power, confidentially; but then we will have 
that much less water in storage come July, and we need summer 
flows commencing about the 20th of August going into and 
through most of September.
    So that is the basic tension in the system. The other 
thing, frankly, from a water operator and power generator 
perspective as we balance our ESA obligations and our tribal 
trust obligations that we are concerned about is that the 
drought is so serious this year that we are putting a very 
large hole, if you will, in the reservoir system, and it will 
take an average year or better to recover next year. So we are 
going to skate into the winter power season on thin ice this 
year from the power generation perspective.
    Mr. Smith of Washington. I guess the question in that 
situation is who trumps whom. If the ESA and the tribal 
concerns do not want the water to be released, but the BPA says 
we need to do it for power, is there any clear idea of who wins 
that argument?
    Mr. McDonald. We are kind of operating a week at a time, 
Congressman, and doing our very level best to consult with all 
the interested parties to find what the balance is.
    Mr. Smith of Washington. So no, basically, at this point; 
it is kind of unknown.
    Mr. McDonald. Yes.
    Mr. Smith of Washington. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. I think it probably could be said that 
California cannot look forward to a lot of excess power over 
the next year, I suspect.
    Mr. McDonald. We have noticed that in the last few months.
    Mr. Calvert. Okay.
    Mr. Walden?
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. McDonald, I want to go back to a comment that you made 
about two or three projects that might need additional funding 
authority under Federal legislation. One of them that you 
mentioned was Warm Springs Dam. I am trying to figure out which 
dam that is. Is that the Wickiup Project?
    Mr. McDonald. I confess that I am drawing a blank; I am so 
new to the region that I do not quite have every dam name put 
with the project. I apologize. I will have to check.
    Mr. Walden. If you could get back to me on that, because I 
know there is some restoration and dam safety work going on at 
Wickiup, which is in the general area.
    Mr. McDonald. Okay--that refreshes my memory. It is not the 
Wickiup project. I am still not remembering the name of the 
project, so I will double-check.
    Mr. Walden. All right. If you could get back to me on 
that--
    Mr. McDonald. They are on different tracks; they are 
different dams.
    [Information furnished by Mr. McDonald follows:]

    Part of the Vale Project, Warm Springs Dam is located on the Middle 
Fork of the Malheur River in east-central Malheur County, in 
Southeastern Oregon. The upper portion of Warm Springs Reservoir 
extends into Harney County.
                                 ______
                                 
    Mr. Walden. Last week, when we were both over on the Senate 
side on the Klamath project issues, one of the people who 
testified released a report about how to improve water quality 
in Klamath Lake to help with the suckers there, and he spoke 
about the oxygenation proposals that he had.
    I wonder if you have had a chance in the intervening time 
to take a look at that report, or people in your agency--and 
perhaps anybody at this table--if you are familiar with these 
proposals to literally put oxygen into the bottoms of some of 
these lakes to improve the quality of the water?
    Mr. McDonald. The Reclamation staff, Congressman, has been 
looking at that report last week and literally over the 
weekend. It was a subject of discussion yesterday at the 
meeting we organized at your request and the Senators' request 
yesterday in Klamath. When I leave here, I will have a 
conference call with my staff to be brought up to date. But I 
do know that it was specifically considered. I do not know that 
the consultant was there, but the water users were there, and 
talking through the science brought forth by that report was 
one of the agenda items.
    Mr. Walden. Are either of the other of you familiar with 
these projects to pump oxygen into the bottoms of these lakes 
to improve the quality of the water?
    Mr. Hirsch. USGS is involved in the Klamath Lake water 
quality issues and has been for many years, and we certainly 
have looked at various places around the country where oxygen 
or simply air has been pumped into water bodies to improve 
their condition. We would be happy to provide you with some 
feedback on that once I touch base with my staff in Oregon. We 
would be happy to do that.
    Mr. Walden. Okay, that would be good. As you know, time is 
of the utmost concern in the Klamath Basin this year. Today is 
the 27th, so in four days, basically, a report has to come out 
about whether those farmers are going to get any water or not.
    The concern I have dates back to legislation that we were 
able to pass last year, authorizing this study for additional 
storage. Mr. McDonald, as I reread some of your comments from 
last week over the weekend, I found myself wanting to ask more 
questions, and lo and behold, here we are with that 
opportunity.
    The question I have--and you do not have to do it right 
now--but if you could get more specific about where your agency 
is on a time line with these studies.
    Mr. McDonald. Okay.
    Mr. Walden. It seemed kind of vague in terms of what I was 
reading, and I really want to know dates and times. Where are 
we in assessing, and what is the time line that we need to be 
one to increase water storage in that basin, because so much is 
at stake. People are literally going broke.
    I can tell you that my field director was at the meeting in 
Klamath yesterday. From his report, it was not a very 
productive meeting. People walked away feeling they had gotten 
no answers and were very, very frustrated. Emotions were 
running high; apparently, more than 300 people were outside 
protesting one way or another.
    We have got to get on this, and I want to be in a position, 
given the flow of legislation here, to make sure that we do not 
miss any deadlines here to move forward on storage.
    Mr. McDonald. I will be glad to respond on the record, 
Congressman.
    [Information furnished by Mr. McDonald follows:]

    Public Law 106-498 authorized Reclamation to conduct a number of 
feasibility and other studies related to the Klamath Project. 
Reclamation estimates that the Section 2 studies will be completed as 
follows:

    Raising Upper Klamath Lake--Fiscal Year 2003
    Gerber Reservoir--Fiscal Year 2003
    Long-term Demand Reduction Program--Fiscal Year 2003
    Long-term Water Acquisition Program--Fiscal Year 2004
    Water Quality Improvement Program--Fiscal Year 2004
    Ground Water Development--Fiscal Year 2005

    In addition, Reclamation will enter into a partnership with the 
Oregon Water Resources Department to review potential studies on water 
supply needs of non-project lands in the Upper Klamath Basin, as 
authorized in Section 3.
                                 ______
                                 
    Mr. Walden. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, Mr. Walden.
    Ms. Solis, do you have any additional questions?
    Ms. Solis. No, Mr. Chairman.
    Mr. Calvert. Ms. Napolitano?
    Ms. Napolitano. Yes, Mr. Chair.
    One of the things that concerns me is that we have looked 
at many of the water issues for the Western States, and of 
utmost concern to me, especially in California, is storage and 
recycling. I do not see storage as a local issue, other than a 
storage dam under the underground rivers or the aquifers. I am 
looking to find out if any of the agencies are looking at 
support to the local municipalities for underground or above 
ground storage of water that they can purchase in winter when 
it is cheaper and then be able to use for their own 
communities, as opposed to relying strictly on the water in 
California from the aqueduct or from the Colorado or from other 
sources.
    Beyond that, there is the issue of being able to help 
reopen water wells that have been closed for whatever reason, 
whether because of maintenance or because they have perceived 
contamination and are not tied into any water mains that will 
help meld the water or break it down in order to make it 
potable.
    Those are issues that have not even begun to be discussed, 
and yet they can be answers for some of the issues in 
California as well as other States, because we are not looking 
beyond; we are looking only at the traditional things that we 
are used to.
    On recycling, a lot of the problems are with the small 
municipalities that cannot afford to bring a recycling 
infrastructure into the community. Are we looking at assisting 
them so they can then use pure water rather than recycled water 
for commercial, industrial, and municipal uses?
    Mr. Hirsch. Let me comment a little bit from the 
perspective of the U.S. Geological Survey. We have a program 
and have had it for over 100 years called the Federal-State 
Cooperative Water Program in which we cooperate with 
communities, and we have many, many municipalities, counties, 
et cetera, as well as State agencies that we undertake work 
with. They bring half the money, we bring half the money, and 
we undertake particularly hydrogeologic studies of many of the 
basins throughout California to look at their potential as 
sites for long-term storage, aquifer storage and recovery, 
recharge, and the reuse of reclaimed wastewater--Orange County, 
Antelope Valley, just to name a couple of places where we have 
been extremely active working with and assisting those 
communities to identify long-term solutions in terms of 
underground water storage.
    Ms. Napolitano. I want to just pick up on that one point, 
because the sanitation district is now utilizing runoff after 
the first 24 hours of water to be able to replenish the 
aquifers. Well, they claim to have great space for storage, yet 
we are not looking at being able to use the existing storage to 
put in the additional water that we may need eventually; it is 
just running through the rivers and into the ocean.
    Another issue that has come up recently is that EPA is 
forcing sanitation to do not tertiary treatment of water that 
is going to the ocean, but a fourth treatment which is going to 
cost billions of dollars to the taxpayers to set up a new 
facility to do the fourth treatment.
    I am not sure what they are basing that on--that is another 
story--but to me, if we were able to use that water in 
refurbishing the aquifers, we would be better off, or if we 
could find a way to have it go through the natural system and 
put it back into use in the aquifers.
    Mr. Hirsch. I am not familiar with the details of the 
examples that you are talking about, but we would be happy to 
come and visit with you and get some more details and see if we 
can be of any help.
    Ms. Napolitano. I would appreciate it, sir, because that 
goes for most of Southern California.
    Mr. Calvert. I thank the gentlelady.
    I will go ahead and ask a couple of questions, and Mr. 
Pombo will be back shortly.
    A question was brought up earlier by Ms. Napolitano on the 
Streamgaging Program, and I am wondering if USGS is cooperating 
with other Federal agencies that may have some technologies 
that might assist in that--specifically, the National Weather 
Service, with some of our satellite imagery data, that type of 
thing. Are you exploring new technologies to be able to do this 
type of information-gathering?
    Mr. Hirsch. First, just to comment on the National Weather 
Service, we provide virtually all of the streamflow information 
that the National Weather Service uses in making their 
streamflow forecasts, and we work very, very closely with them 
on our program.
    From a technology standpoint, we had a workshop with NASA 
and many of their funded entities and a number of parts of the 
Defense Department, in fact, to talk about potential money-
saving or improvements in our streamgaging activities.
    Over the last three years, we have had a program within the 
USGS that we call Hydro 21, looking at radically new ways of 
going about this process of streamgaging, and in fact have 
conducted a couple of experiments in which we have used 
helicopters and radar away from the stream in fact to make 
measurements. We believe that this will in the long run lead us 
to some abilities and some reliabilities that we have not had 
in the past.
    None of those have shown themselves to be technologies that 
are ready for widespread deployment, but we are actively 
pursuing that kind of--
    Mr. Calvert. I was going to ask how accurate is that data?
    Mr. Hirsch. In fact, the few experiments that we have done 
have shown it to be quite accurate, really, in the same range 
of less than 5 percent error as we would see with our current 
meter-based measurement.
    Mr. Calvert. That is using helicopters and other fixed-wing 
aircraft?
    Mr. Hirsch. Not fixed-wing, but helicopters. The 
application of the helicopter technology, which in fact would 
be quite expensive but has tremendous potential applicability 
to large regional flood situations in which it is very 
difficult to deploy our staff on the ground to safely make the 
kinds of measurements that are needed.
    The other application is from a couple of kinds of radars 
that were developed for military application, one of which 
senses the velocity of the water on the surface--a lot like a 
police radar gun, essentially--and another kind of radar which 
penetrates the water and defines the channel shape as it 
changes over time, which is very important in a lot of Western 
streams.
    Those are the kinds of technologies that we are looking at, 
and they do appear to be accurate and at the moment not more 
cost-effective than the ones we use today. But we need to 
explore that and look for savings from miniaturization and a 
large market that might potentially develop.
    Mr. Calvert. Back to developing water supply plans for the 
West, do you guys in the water reclamation business and the 
USGS work closely together to make sure we develop additional 
water supplies for the West?
    Mr. McDonald. We do indeed. Both of us can respond that 
way. There are many cooperative programs between the two 
agencies, Congressman. We in Reclamation often look to USGS for 
technical expertise. We participate in their Streamgaging 
Program, rely on their science in many instances, and I think 
we have a long, literally decades-old, tradition of cooperation 
and collaboration.
    Mr. Calvert. Could you give us some examples on use of 
groundwater and surface storage that can make the Western 
States more drought-resistant? There was certainly some talk 
about that earlier. Are there plans under way that you are 
aware of that we do not know about?
    Mr. McDonald. I would defer to Mr. Brophy if he has 
examples among the Western States. I cannot think of anything, 
Congressman, that Reclamation itself may have.
    Mr. Brophy. Mr. Chairman, the State of Arizona is involved 
in an extensive groundwater banking program where Colorado 
River water is stored underground either by direct recharge 
into the aquifer or by delivery of surface water to irrigated 
fields, and they do not pump groundwater where ordinarily they 
would. In that way, the State of Arizona is generating hundreds 
of thousands of acre-feet a year additional storage in aquifers 
in Central Arizona. That water is going to be used to firm up 
our municipal supplies in Central Arizona and is also going to 
be used to facilitate interstate water banking and help the 
State of Nevada get over the next 30 years as they grow in 
Clark County.
    Mr. Calvert. I know that in California, this is extremely 
important. As you are aware, we are going to have to be looking 
toward the 4.4 million acre allocation in the next several 
years, so we are looking for a lot of help in groundwater 
management in California, certainly, to make sure we have 
enough supply to get through the time when we are not able to 
take over the 4.4 million acre-foot allocation. So we look 
forward to working with both USGS and Reclamation and anybody 
else to help us get to that point.
    With that, Ms. Solis, do you have any further questions?
    Ms. Solis. No, Mr. Chairman.
    Mr. Calvert. Ms. Napolitano?
    Ms. Napolitano. One thing that is puzzling me--there was 
mention in one of the comments of the Indian water rights. I 
had a conversation with a tribal chairman who indicated to me 
that they had water that they did not use. What is it that 
prevents us from being able to work out a cooperative 
agreement? It is a different State than California, and I am 
wondering if it is something that we need to look at, because I 
had been given information from another agency that there was 
no law that permitted it or that it was not legally feasible. 
So I am wondering if there is an ability for us to dialogue--
and I am speaking specifically to the Colorado River water.
    Mr. Brophy. Mr. Chairman, Congresswoman Napolitano, Indian 
water rights claims throughout the West are a threat to non-
Indian water uses, and the Council has actively supported 
negotiated settlement of Indian water rights claims throughout 
the West. There are significant claims in Arizona, New Mexico, 
Colorado, Montana, the State of Washington, and throughout the 
West.
    Typically, when claims are settled, it puts Indian 
communities in a position to market water that they might 
receive. Under the current state of the law, at least, many 
people think that the Non-Intercourse Act prohibits Indian 
communities from leasing water which they have rights to and 
that they need congressional permission to be able to lease or 
otherwise dispose of their water; that they need an exemption 
from the Non-Intercourse Act.
    Also, there is general opposition in many quarters in the 
West to Indian communities marketing their water supplies if in 
fact the water supplies that they are using are meant to 
satisfy their reserve rights to water. The thought is that that 
water should be used on reservations, so many interests in the 
West will oppose the marketing of water that is in fact 
reserved water.
    Colorado River water in Arizona, for example, is marketed 
by Indian communities that have achieved water rights 
settlements, and it is done with the permission of Congress.
    Ms. Napolitano. I see. That answers one question.
    Now, another question that comes to mind is that land along 
the Colorado River is Federal, and there is an issue of 
salinity and what we can do to help clean up some of that 
salinity before it gets down to the users in the other States.
    Mr. McDonald. I will respond to the Congresswoman. Congress 
has authorized something called the Colorado River Basin 
Quality Control Program. It is administered principally by the 
Bureau of Reclamation and involves a number of other agencies. 
It is a program that was developed and carried out 
cooperatively with the seven Colorado River Basin States and 
has as its objective reducing salt-loading to the Colorado 
River from both natural and manmade sources in a manner that 
will allow the seven Basin States to continue to the 
development of their compact-entitled waters. In Reclamation's 
judgment, it has been a very successful program over the years; 
it has been authorized and amended a couple of times by 
Congress to streamline it and tailor-make it to the situation 
faced in the Colorado River Basin, and I think that 
Reclamation, working cooperatively with the States, has found 
it to be quite a successful program.
    Ms. Napolitano. I would request, Mr. Chair, that we get a 
report on that salinity program so that we are aware of how it 
is going to affect us.
    Mr. Calvert. Without objection.
    Mr. McDonald. We make regular annual reports to Congress, 
and we would be glad to provide the most recent one.
    Ms. Napolitano. Thank you.
    [Information furnished by Mr. McDonald follows:]

    [The ``2000 Annual Report on the Colorado River Basin Salinity 
Control Program'' was too lengthy to be included and is retained in the 
Committee's official files.]
                                 ______
                                 
    Mr. Calvert. I just have a quick tag-on question before we 
go back on the issue of Native American water rights. The Gila 
River Indians are obviously interested in this. In the new 
settlement agreement, Mr. Brophy, that is apparently being 
negotiated, will the Gila Indians be able to market their 
water?
    Mr. Brophy. Mr. Chairman, the Gila River community will be 
given statutory authority to market a portion of their Colorado 
River entitlements.
    Mr. Calvert. Within the State of Arizona or outside the 
State of Arizona?
    Mr. Brophy. Strictly within the State of Arizona.
    Mr. Calvert. Thank you.
    Mr. Osborne?
    Mr. Osborne. I have one question. Where I come from and I 
think every place else, we are trying to get more water, and 
one suggestion has been a revision of forestry practices where 
undergrowth and dead timber is removed. I have heard estimates 
of being able to save several hundred thousand acre-feet of 
water.
    Is this pie-in-the-sky in your estimation, or is this an 
accountable and accurate way of solving some of the water 
issues?
    Mr. Hirsch. I assume we are talking about the trees that 
grow in the areas near streams. That is one aspect of this 
topic. In fact, we worked very closely with the Bureau of 
Reclamation for quite a number of years, particularly in the 
Gila River Basin of Arizona and a number of other areas, to 
look at the efficacy of these approaches, and while I think the 
general conclusion is that on a short-term basis, one can 
increase water yields by changing the vegetation along the 
riparian zone, it is very difficult to maintain that improved 
yield over a period of time because of the need to repetitively 
go in and modify the vegetation.
    In general, yes, modifying the vegetation can have some 
effect, but I am not familiar with any large areas where that 
has been done to great effect.
    Mr. Osborne. Thank you. I have no further questions.
    Thank you, Mr. Chairman.
    Mr. Calvert. Ms. Solis?
    Ms. Solis. No questions.
    Mr. Calvert. Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman.
    I want to go back with Mr. McDonald one more time. I just 
want to make it clear--so I can put my folks at home at ease--
we are not going to spill one drop of water to replace those 
valves; we are not going to waste any water?
    Mr. McDonald. If we maintain the construction schedule that 
we are on now, because it is a drought and the reservoir would 
be drawn down anyway to deliver water to irrigators, we will 
have the happy circumstance, the ironic circumstance, of being 
able to pull it down because we had to anyway to deliver water, 
and we will not waste anything, and that will expose the valves 
so that we can proceed to construction.
    Mr. Otter. Great. So the stars are lined up, and we know 
where we are going.
    Mr. McDonald. In an unfortunate way, yes, the drought has a 
silver lining in this particular case.
    Mr. Otter. All right. We have all got to count our 
blessings somewhere, and I would just as soon count mine there.
    Mr. McDonald. As soon as you convince Scott Campbell, I 
will appreciate it.
    Mr. Otter. I would like to ask the panel as a whole if they 
are familiar with the term 21,000 megawatts nationwide that 
could be added to existing hydroelectric projects, that we 
could actually add 21,000 megawatts of electricity to bricks 
and mortar already in place.
    Are any of you familiar with that figure?
    Mr. McDonald. I am not, Congressman. I suspect it is a 
figure that has come from an organization like the Federal 
Energy Regulatory Commission that licensed the private power 
facilities throughout the country.
    Certainly in Reclamation, it would be only a matter of 
perhaps a few hundred megawatts that could be financially and 
economically added to our existing power plants.
    Mr. Hirsch. I am not familiar with it.
    Mr. Brophy. Nor am I.
    Mr. Otter. Finally, I would like to ask Mr. Brophy one more 
time to make sure--I cosponsored with Congressman Simpson the 
Act which would require the Government to pay its share of the 
costs in adjudicating water and fighting for that adjudication. 
Has your organization gone on record in support of the 
Government paying for those costs in questions of adjudication 
and water rights?
    Mr. Brophy. Mr. Chairman, Congressman Otter, yes, we have; 
it is attached to my testimony. We think that the United States 
should pay its fair share in these adjudications.
    Mr. Otter. Thank you very much.
    Thank you, Mr. Chairman. That is all I have.
    Mr. Calvert. Thank you.
    Does anyone have additional questions?
    Ms. Napolitano. Just a follow-up. I do not think I got an 
answer about if there are any programs that are being looked at 
to assist municipalities in doing either above- or below-ground 
storage.
    Mr. McDonald. Certainly, Reclamation as part of its overall 
planning process is working with the water--
    Ms. Napolitano. No--at the municipal level.
    Mr. McDonald. At the municipal level, we are working with a 
number, and I think the Title XVI Wastewater Reuse Program is a 
good example. Many of those projects, as you know, 
Congresswoman, being in Southern California, certainly we have 
been deeply involved in both the California 4.4 Plan and the 
CALFED process, which have a variety of structural arrangements 
that deal with both surface and groundwater supplies.
    Ms. Napolitano. But are you working through the cities 
themselves, are you working with the counties, or are you 
working with the water agencies themselves? That makes a big 
difference.
    Mr. McDonald. I see what your question is. I do not recall 
the particulars in the context of the 4.4 Plan and CALFED. I 
would be glad to get those particulars and respond for the 
record.
    Ms. Napolitano. It would be nice to know, Mr. Chairman, so 
that the rest of the members will understand whether they can 
tell their communities that they have access to programs that 
will help them, or where they can go to get that assistance.
    Mr. Calvert. We will obtain that information and distribute 
it to the members.
    Ms. Napolitano. Thank you, sir.
    Mr. Calvert. Mr. Walden, additional questions?
    Mr. Walden. No, Mr. Chairman.
    Mr. Calvert. I have no additional questions, so I will 
thank this panel for their testimony and for answering our 
questions. We certainly appreciate your attendance and look 
forward to having you back again in the future.
    Thank you all.
    Mr. Calvert. Our second panel consists of Ms. Jennifer 
Salisbury, Secretary, New Mexico State Energy, Minerals and 
Natural Resources Department; Mr. Steve Malloch, Counsel, 
Western Water Project, Trout Unlimited; Dr. Philip M. Burgess, 
Senior Fellow, Center for the New West; and Mr. Ronald E. 
Young, President, WateReuse Foundation.
    We thank the witnesses. We have a 5-minute rule, and you 
have an indicator light on the witness table. When it is green, 
you are fine; when it turns yellow, you have one minute to sum 
up; and when it turns red, please attempt to conclude your 
testimony in a timely way.
    With that, Ms. Jennifer Salisbury, you may begin your 
testimony.

 STATEMENT OF JENNIFER SALISBURY, SECRETARY, NEW MEXICO STATE 
       ENERGY, MINERALS AND NATURAL RESOURCES DEPARTMENT

    Ms. Salisbury. Thank you, Mr. Chairman, members of the 
Committee. It is really an honor to be here.
    Although I am the Secretary of the Energy, Minerals and 
Natural Resources Department for the State of New Mexico, a 
department that has jurisdiction over most of the natural 
resources in the State, including the 42 million acres of 
forested land on which we are required to put out forest fires, 
I am here to represent the Western Governors' Association this 
afternoon. The Western Governors' Association is made up of the 
18 Western States and also includes three of the Territories.
    I would like to make three points if I may. First, as most 
of you already know since you are in the process of 
experiencing some level of drought, unlike other disasters, 
drought moves very slowly. It takes months of below-normal 
precipitation to create a drought and more than one good 
rainfall to catch up.
    While it may be slower or less dramatic than other natural 
disasters, the effects are long-lasting and widespread and can 
cause great misery. I just want to give you some examples of 
the direct physical impacts that I know you are aware of.
    In the 1995-1996 drought that New Mexico experienced, and 
in our sister States of Arizona and Texas, Texas had in excess 
of $1.2 billion in damages to its agricultural industry. Other 
drought effects are that it can exacerbate forest fires. Last 
year, as I am sure all of you know, New Mexico had one of its 
worst fire seasons in history. The Cerro Grande fire in Los 
Alamos burned up more than 40,000 acres as well as hundreds of 
houses.
    The fire season also burned across the State more than 
500,000 acres and cost us about $60 million. Drought means less 
water in our streams, soil, and resources. Drought results in 
less water for livestock and for wildlife. The Northwest, as 
was mentioned in the earlier panel, has been experiencing a 
drought, and I think it is interesting that the effect might be 
really bizarre down the road. Because there is less water in 
the reservoirs, it may mean there is less water available for 
electricity; that may mean that less electricity may be made 
available to California this summer when it expects more 
electricity from the Northwest, which could exacerbate the 
rolling blackouts that they are expecting.
    So drought may be slow to be recognized, but it can be 
severe and cause incredible consequences.
    The second point that I would like to make, which we 
experienced in New Mexico in our 1996 drought, is that once 
drought is over, it is very hard for the institutions to retain 
or maintain any sort of memory. For the most part, we lose that 
memory, we move on to whatever the next most important issue 
is. Although intellectually, we would like to think that we can 
continue on, what really happens is that you just forget, and 
people move on.
    So instead of being proactive, what we are most like is 
what the characters were like in John Steinbeck's ``East of 
Eden,'' and I would like to quote: ``And it never failed that 
during the dry years, the people forgot about the rich years, 
and during the wet years, they lost all memory of the dry 
years. It was always that way.''
    The third point that I would like to make is that be that 
as it may, the Federal response to drought is uncoordinated, ad 
hoc, and very difficult to get. The assistance that is provided 
is primarily geared toward relief; very little is available to 
help States plan for drought. Of the 88 drought-related 
programs that have been funded by the Congress over the last 
decade, only 47 of those provide for drought relief, and only 7 
provide for drought planning.
    Let me give you a couple of examples of what I mean by the 
response being ad hoc and difficult to get. Farmers learned in 
New Mexico during our drought that the documentation that was 
acceptable to get assistance from the Department of Agriculture 
under some of the programs that they have available may not be 
sufficient documentation for other programs. In other words, 
you may have to fill out more than one form or several forms to 
actually get relief.
    Obviously, all of these programs are dependent on 
appropriations, and a lot of these appropriations are only 
available through the supplemental process; they are not 
regularly available. So relief may not be available, for 
example, until a farmer has already experienced disaster.
    Another example--the Secretary of the Army, the Corps of 
Engineers, has authority to transport or haul water in 
emergency situations to farmers and other localities. The 
problem is that in the 20 years they have had this authority, 
they have only exercised that authority one time that we are 
aware of, and that was on an island on the East Coast 
somewhere. The reason is because they have apparently over 20 
pages worth of guidelines in the Federal Register, all of which 
are very hard to overcome, so the bottom line is that it is 
virtually impossible to get the Corps of Engineers to haul 
water in an emergency.
    How can this situation be changed? I think the Western 
Governors would recommend to this Committee and the Congress 
that we believe that a comprehensive, coordinated, and 
integrated approach is needed to address future drought 
emergencies. Western Governors would like to emphasize to the 
Committee that the approach must include four elements.
    First, the approach must provide for a monitoring system to 
collect, analyze, and assess data. That has already been 
mentioned in the previous panel. This is absolutely fundamental 
to making good policy decisions. The problem is that the 
existing system does not allow for a standardized format, and 
it is not coordinated.
    Second, this approach must provide a framework that 
promotes planning and mitigating drought impacts. Over 30 
States have drought plans already in existence. But having a 
plan is of little value if it is not implemented. Successful 
implementation obviously requires practice, particularly when 
you are not in a drought situation which we are not in right 
now, because if you do not practice, people move on and retire, 
and you lose that institutional memory.
    Third, the approach must enhance the response capability of 
the Federal Government. At a minimum, we believe that the 
Federal Government must improve the way that droughts are 
managed, particularly by streamlining the processes and 
programs and by providing some sort of coordinated relief.
    And fourth, the approach must find a way to better 
communicate to the citizens of our States that they are in a 
drought. We believe that if citizens are given the tools to do 
the right thing, they will do the right thing and conserve.
    The Governors believe that these four elements--monitoring, 
planning, response, and communications--are the keys to 
ensuring that the devastating effects of drought are mitigated 
if not minimized.
    The Western Governors are in the process, Mr. Chairman, 
members of the Committee, of putting together a comprehensive 
piece of legislation which we hope we will be able to present 
to this Committee and other members of Congress sometime in the 
next month or so. It will contain all of these elements.
    Thank you very much. I will be happy to answer any 
questions.
    Mr. Calvert. Thank you.
    [The prepared statement of Ms. Salisbury follows:]

 Statement of Jennifer Salisbury, Secretary, New Mexico Department of 
   Energy, Minerals, and Natural Resources, on behalf of The Western 
                         Governors' Association

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to discuss an issue of great 
importance to the Western states -- Western water and specifically the 
status of drought planning and response. My name is Jennifer Salisbury. 
While I am the Secretary of the New Mexico Department of Energy, 
Minerals, and Natural Resources, I appear today on behalf of New Mexico 
Governor Gary Johnson, who is the Lead Governor for the Western 
Governors' Association Drought Program. The Western Governors' 
Association is an independent, nonprofit organization representing the 
governors of 18 states, American Samoa, Guam and the Northern Mariana 
Islands. Through their Association, the Western governors identify and 
address key policy and governance issues in natural resources, the 
environment, human services, economic development, international 
relations and public management.
    Drought is a normal part of the climate for virtually all regions 
of the United States, but it is of particular concern in the West, 
where any interruption of the region's already limited water supplies 
over extended periods of time can produce devastating impacts. Records 
indicate that drought occurs somewhere in the West almost every year. 
However, it is multi-year drought events that are of the greatest 
concern to planners, natural resource managers and government policy 
makers.
    Water scarcity continually defines and redefines the West. The 
steady growth that has been characteristic for much of the West today 
creates increased demands for agricultural, municipal and industrial 
water supplies. Furthermore, such competing demands as the public's 
rising concern for meeting ``quality of life'' and environmental 
objectives create water supply management challenges in times of normal 
precipitation. Drought exasperates these challenges.
    During the 1995-1996 drought, the Southwest and southern Great 
Plains states, including New Mexico, which were hit hard by the 
drought, were often frustrated in our attempts to provide drought 
assistance to our citizens. In my own state, for example, the drought 
exacerbated the fire season. In 1996, more than 85,380 acres burned on 
state and private lands costing taxpayers about $7 million. What we 
generally found was that most government agencies, at all levels, 
lacked policy for planning and responding to drought, regardless of its 
duration or impacts. In addition, this provides confusion and a lack of 
understanding of roles and responsibilities among government entities. 
The lack of state-wide preplanning for some states, plus the absence of 
organizational structures and processes to identify and resolve issues, 
facilitate networking and promote partnerships also hindered reaction 
time and effectiveness.
    At the Federal level, we found that droughts had historically been 
treated as unique, separate events even though there had been frequent, 
significant droughts of national consequences over the years. Actions 
were taken mainly through special legislation and ad hoc action 
measures rather than through a systematic and permanent process, as 
occurs with other natural disasters. Frequently, funding to assist 
states with related impacts was unavailable, or not available in a 
timely manner.
    In reaction to this disjointed national drought policy, Governor 
Johnson worked with his colleagues in WGA to develop a policy 
resolution. His efforts were successful as the Governors adopted a 
resolution which stated in part: ``The Western governors believe that a 
comprehensive, integrated response to drought emergencies is 
critical...[and that] it is important to work together and 
cooperatively with other affected entities to plan for and implement 
measures that will provide relief from the current drought and prepare 
for future drought emergencies.'' In addition, the resolution called on 
western states to further study the issue and make recommendations on 
how to improve Federal and state responses to drought.
    The states' recommendations are contained in a 1996 report 
``Drought Response Action Plan.'' Besides making suggestions on how to 
improve responses to droughts, the report emphasized the need for 
incorporating mitigation and preparedness measures in government 
drought programs. One key recommendation called for the development of 
``a national drought policy or framework that integrates actions and 
responsibilities among all levels of government (Federal, tribal, 
state, regional and local).'' With strong support of the Western 
Governors, Congress enacted the ``National Drought Policy Act of 1998, 
P.L. 105-109. The law established an ``advisory commission to provide 
advice and recommendations on the creation of an integrated, 
coordinated Federal policy designed to prepare and respond to serious 
drought emergencies.'' The National Drought Policy Commission's report 
was issued last year.
    A second key recommendation in the 1996 WGA report called for the 
creation of a regional drought coordination council. This 
recommendation led to a Memorandum of Understanding between WGA and 
several Federal agencies which was signed in early 1997. The MOU 
resulted in the establishment of the Western Drought Coordination 
Council (WDCC). Co-chaired by Governor Johnson and Deputy Secretary 
Richard Rominger of USDA, the Council members concentrated their 
efforts on improving drought preparedness, mitigation and response in 
the West.
    During the next two years, the WDCC worked to close some of the 
gaps identified in the report. As examples, the WDCC generated such 
products as: (1) a step-by-step guide for planners to help identify and 
assess their vulnerability to drought; (2) the Catalog of Federal 
Assistance Programs, which was an effort to identify all of the Federal 
drought assistance programs and make them available in one catalog; 
and, (3) the Western Climate and Water Status Report, which was an 
effort to coordinate available monitoring data into quarterly reports 
to alert officials to potential drought development.
    Despite making significant strides in coordinating drought 
programs, the WDCC recognized a critical piece was still missing: 
Federal legislation articulating, indeed mandating, the coordination 
and integration of drought programs. Consequently, in May 1999, the 
Western Drought Coordination Council went into hiatus in order to focus 
on providing assistance to the National Drought Policy Commission and 
to avoid a duplication of effort.
    In a 1999 policy resolution, Western governors reiterated their 
call for a comprehensive, integrated response to drought emergencies, 
including mitigation planning. Western governors view this as critical 
to the social, environmental and economic well-being of the West.
    In urging that Congress enact legislation, which provides for a 
comprehensive, coordinated and integrated approach to future drought 
emergencies, the Governors also recommended the following elements:
    (1) LMonitoring/Assessment/Prediction -- Provides for the 
development of a comprehensive monitoring system to collect, analyze 
and disseminate available data and products in a useable manner so 
citizens and businesses can make critical decisions based on credible 
data.
    (2) LPreparedness and Mitigation -- Provides a framework that 
assists states, Federal agencies, tribes, local governments and water 
utility agencies to assess vulnerabilities and therefore enable them to 
reduce the economic, social and environmental impacts (i.e. 
vulnerability) of drought; provides incentives for a variety of 
preparedness actions, policies and mitigation options that will 
facilitate improved cooperation among all levels of government and 
promote individual responsibilities in planning for and mitigating 
drought impacts; and provides policy to promote drought contingency 
planning, emphasizing a more proactive, anticipatory approach to 
drought management.
    (3) LResponse -- Enhances the current drought response capability 
of Federal agencies, states, localities and tribes through a variety of 
appropriate policies and programs; provides needed policy to promote 
regional drought response mutual aid; strengthens intergovernmental 
response partnerships; and improves overall drought response management 
and customer service.
    (4) LCommunications -- Encourages the use of a variety of 
communication tools to identify and use drought-related information.
    As mentioned above, the National Drought Policy Commission issued 
its report in May 2000. In recommending that comprehensive legislation 
be enacted, the Commission found that ``this country relies on a patchy 
approach to reduce the impacts of drought.''
    Using the reports and recommendations of the Western Governors, the 
Western Drought Coordination Council, and the National Drought Policy 
Commission, WGA now has begun to develop draft legislation to turn the 
recommendations into reality. We cannot emphasize enough that Congress 
must engage this topic and act in order to develop national policies 
which will organize and integrate the Federal drought preparedness 
programs and improve the overall response to drought. Additionally, we 
believe Congress should consider reviewing such programs and issues as 
the prepositioning of fire fighting equipment, water hauling, crop 
insurance, livestock feed assistance, drought planning, drought 
monitoring programs, and the definition and use of Federal drought 
program `triggers.' Finally, the legislation should provide the 
appropriate authorization and funding. WGA anticipates forwarding a 
draft bill to Congress for your consideration in mid- to late April.
    The WGA drought bill will be comprehensive and likely require 
review and consideration by a number of Congressional committees, 
including this one. Nevertheless, given La Nina, El Nino, Global 
Warming, and the normal occurrence of drought, we hope Congress will 
meet the challenge and help prepare the nation for drought by enacting 
legislation.
    Again, on behalf of the Western Governors, thank you for giving us 
the opportunity to provide testimony on Western Water Issues and in 
particular drought policy. We look forward to working with you to 
address the complex water issues that face our region and nation.
                                 ______
                                 
    Mr. Calvert. The next witness is Mr. Steve Malloch, Counsel 
for the Western Water Project, Trout Unlimited.
    You may begin your testimony.

     STATEMENT OF STEVEN MALLOCH, COUNSEL, TROUT UNLIMITED

    Mr. Malloch. Thank you very much, Mr. Chairman and members 
of the Committee. Thank you for inviting me here today.
    I am Counsel for Trout Unlimited. TU's 130,000 members are 
Teddy Roosevelt-style conservationists, working in their 
communities and engaged in solving real problems affecting 
trout and salmon.
    The fundamental problem we face in the West is that the 
Western water system established in the mining camps a century 
and a half ago simply deferred gunfights. Today, we are in the 
thick of those fights over competing uses. While once the 
objective in the West was putting water to use, now we have a 
much more complicated situation, with population growth and 
very real environmental water needs.
    In this testimony, I will touch on some of the innovative 
water work in the West, the good; highlight some problems, the 
bad; and suggest areas ripe for change, ugly but could be 
better.
    First the good. I would like to highlight three positive 
forces. In collaborative watershed initiatives, irrigators, 
urban water interests, and conservationists find that they in 
fact have much in common and that crafting their own solutions 
is much better than having solutions forced upon them--from 
Washington, from the Federal courts, and from their local 
courts.
    Second, in maintaining healthy river flows, market force 
are starting to work. In several States, notably, Montana, 
Oregon, and Washington, private parties obtain water rights 
through willing seller/willing buyer transactions, and they 
manage to keep the fish wet.
    Third, water quantity issues are going national. Public 
interest in water issues is growing as Western-style quantity 
problems spread from the Southeastern ACF and Everglades 
systems to the main conflicts over Atlantic salmon flows. We 
are no longer dealing with a strictly Western set of problems.
    Now for the bad. I would like to highlight two of the 
seemingly endless list of conservation problems. The most 
fundamental conservation problem is in the decline of aquatic 
ecosystems. We have already lost 20 complete species of Western 
fish to extinction; 100 more are considered threatened, 
endangered, or of special concern. That is about 70 percent of 
the native fish species west of the Rockies. Add to that 
hundreds of sub-species or, as the Fish and Wildlife Service 
call them, ``ecologically significant unit,'' particularly 
Pacific salmon and steelhead, have been extirpated or 
endangered.
    It is almost impossible to find a major water project 
without an ESA problem. Of course, the ESA is not the problem; 
it simply tells us how badly the aquatic ecosystems have fared.
    We have heard a fair amount today about the growth in 
demand for new water. There is a figure attached to my 
testimony that shows that in much of the West over 85 percent 
of the annual runoff is already used. There simply is not much 
new water left. The inescapable consequence is that we will 
have to shift water from existing uses to new uses and make 
better uses of the water already developed.
    Now for the ugly. There are really no shortages of creative 
and innovative solutions. First, we clearly need to invest in 
facility improvements. We should stop needlessly killing fish 
and damaging aquatic ecosystems. A recent study at a Bureau 
project on the Lower Yellowstone River found over 800,000 fish, 
including two ESA candidate species, sucked into the irrigation 
system in one season. Let us invest in fish screens and fix 
this problem.
    We also need to stop wasting water. Let us invest to 
increase efficiency and devise mechanisms to put conserved 
water to use meeting pressing urban environmental demands. In 
much of the West, losing 30 percent of the diverted water, 
wasting it before it ever reaches the farm, is normal. At a 
Montana Bureau project on the Sun River, the system loses over 
58 percent of diversions. At this same project, the Arctic 
grayling, an ESA candidate species, lives in the irrigation 
canals because the project sends over 1,500 CFS into the 
irrigation ditches and leaves barely 100 CFS for the river. If 
we fix the conveyance loss problem, there would be lots more 
water left for the fish. We really need to invest in 
conservation, both through the conveyance system and on the 
farms.
    We need to encourage market solutions, particularly those 
that allow private interests to hold rights to river flows. We 
need to promote the watershed initiatives. Federal agencies 
need to be encouraged to engage in these initiatives and be 
creative in using their authority to implement the solution. 
Congressional guidance and encouragement to the agencies would 
be very helpful there.
    We need to base decisions on good science. We have already 
heard a fair amount about the USGS Streamgaging System; let me 
add my voice to that. Money and collaboration are worthless 
without good science and good information.
    Finally, we need to review the operations, facilities, and 
uses of Federal water projects. In light of the growing need 
for water in the West, we need to create an efficient and 
collaborative mechanism to review Federal projects and to make 
changes needed while respecting existing property and contract 
rights.
    Trout Unlimited does not advocate heavy-handed Federal 
action, however, we do need changes to the Western water 
system. We recognize valid property and contract rights in 
water, community concerns, and the rights of States. There is, 
however, a significant role for Federal investment and 
engagement in solving the real problems before us.
    Thank you.
    Mr. Calvert. I thank the gentleman for his testimony.
    [The prepared statement of Mr. Malloch follows:]

         Statement of Steven Malloch, Counsel, Trout Unlimited

    Mr. Chairman, Members of the Committee, thank you for inviting me 
here today. I was asked to testify about innovative ways to accommodate 
environmental needs in western water resources. The problems with 
western water are legion. Sometimes it seems that one cannot set foot 
on a Bureau of Reclamation or western Corps project without endangering 
another species. Yet many of the problems are solvable and there are 
success stories when dealing with western water environmental issues.
    I am Counsel for Trout Unlimited, Inc, (TU), where I focus on 
western water issues. TU is America's coldwater fishery conservation 
organization. Our mission is to conserve, protect and restore North 
America's trout and salmon fisheries and their watersheds. We are a 
private, non-profit organization with 130,000 members in 500 chapters 
nationwide. TU members are not stereotypical environmentalists we are 
usually middle-aged, educated, Teddy Roosevelt-style conservationists, 
engaged in solving real problems, rather than posturing. Our members 
put substantial amounts of their personal resources and time into 
restoring and enhancing their home Rivers.
    The fundamental problem we face is that the water allocation system 
established in the mining camps of the mid-1800's was not designed to 
balance competing socially beneficial uses it was designed to award 
rights and defer gunfights. Billions of Federal, state and private 
dollars were then invested in projects built upon that poorly 
engineered foundation. Today, in the 21st century, the gunfights 
avoided a hundred years ago are breaking out. Just as diverting water 
for irrigation, mining and municipal use is valuable and important, so 
is water flowing in rivers for ecological, recreational and aesthetic 
uses. Species conservation, human health, recreation, sustainable 
economic development and quality of life all demand that rivers and 
streams be treated as more than mere suppliers of commodity water.
    There are positive signs that water in the West is being used in 
more balanced ways and there are examples of how water policy is 
changing as well. In this testimony, I will touch on some of the 
problems, but focus on opportunities for protecting and restoring the 
environment as well as meeting agricultural and municipal needs. There 
are three main parts to my testimony a summary of some of the 
innovative water resources work in the West; highlights of some of the 
ecological and system problems; followed by suggestions for change that 
is needed.
Positive Forces Around the West
    Teddy Roosevelt's pragmatic style of addressing environmental and 
conservation problems is making progress around the West. I want to 
highlight three enormously positive forces in that style at work in the 
West.
Watershed Initiatives
    The first is that irrigators, urban water interests, 
conservationists and others are finding that they often have much in 
common if they manage to talk with each other rather than at each other 
when faced with a serious problem. We also find that we would prefer to 
negotiate our own solutions rather than relying on the courts or 
regulatory agencies to make the decisions. The rise of hundreds of 
collaborative watershed initiatives is a tremendously positive force, 
in large part because it forces all parties to face real problems and 
wrestle with real solutions. Here are a few of the many examples:
    <bullet> LIn some cases, such as on Idaho's Henry's Fork, the 
conversation led to significantly improved operations that benefit 
rivers below Bureau of Reclamation dams. For the Henry's Fork, perhaps 
the premier destination trout stream in the country, flushing sediment 
from the reservoir devastated the fishery; the reservoir operators now 
know the problems flushing causes, both to the fishery and the 
recreation-dependent local economy, and manage the project to avoid the 
problem. Solving that issue led to a host of other collaborative 
efforts in the watershed, some successfully completed, some still in 
discussion, such as transferring ownership of the Reclamation project 
to the irrigation district.
    <bullet> LWatershed groups are also wrestling with tough problems 
such as responses to drought and integrating flow with quality problems 
situations where the existing legal system typically fails to maintain 
the ecosystem values of rivers. In Montana, watershed collaborations 
have addressed instream use of water in serious and useful ways. For 
example, during last summer's drought, Trout Unlimited, water users and 
other water interests entered into voluntary agreements based on the 
principles of shared sacrifice that led to innovative drought response 
plans for the Big Hole, Jefferson and Blackfoot Rivers in Montana. The 
collaborative drought plan avoided an environmental, recreational and 
conservation catastrophe.
    <bullet> LThe Forest Service is effectively using a form of a 
watershed initiative in joining collaborative negotiations over often-
contentious bypass flow provisions in Forest Plan revisions. Using 
authority Congress granted several years ago, the Federal land 
management agencies are finding that many of critical issues can be 
most effectively addressed through collaborative processes.
Healthy River Flows
    A second enormously positive force is the effort to maintain 
fisheries and aquatic ecosystems faced with water shortages. Fish 
cannot breath air maintaining wet streams and rivers is a huge problem 
in the West. In a number of places, efforts are yielding significant 
steps towards solutions. For instance:
    <bullet> LIn several states, notably Montana, Oregon and 
Washington, private parties are obtaining water rights through willing 
seller, willing buyer purchase or lease, and putting them to work 
keeping fish wet. To the astonishment of those who oppose private 
parties holding flow rights for conservation, the local economies are 
not collapsing. Private land trusts provide a model for these water 
trusts, which are a growing and promising partial solution to the flow 
problem.
    <bullet> LThe Bureau of Reclamation is beginning to recognize that 
it can shape river flows for purposes in addition to irrigation, flood 
control and power. In a number of projects, adjustments are being made 
in operations that improve river flows for fish and wildlife.
Public Awareness
    The third force is public interest and awareness water quantity 
issues are gaining an increasing amount of attention. This link between 
healthy rivers, water quality, and the growing demand for water for 
urban needs as well as irrigation and other commercial uses is gain 
attention around the country. In the Southeast it is the Apalachicola/ 
Chattahoochee/Flint system that looks just like a western interstate 
problem; in the Northeast it is the increasing conflict between 
agricultural uses and flows needed for Atlantic salmon restoration; 
while urban water districts vie with anglers and local communities for 
the upper Delaware's water; and around the country it is in relicensing 
of non-Federal, FERC licensed, hydropower plants where river flow is 
often contested. The issues we face in the West are spreading to other 
regions, and national public awareness of the problems is growing.
    There are countless success stories around the West, solutions 
shaped to fit the local conditions and accepted by the affected 
stakeholders. Many are coming out of California, where despite bloody 
and protracted water wars, and unresolved issues, many positive steps 
have been taken. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ For many California examples, see The Pacific Institute (1999). 
Sustainable Use of Water: California Success Stories. Oakland. Pacific 
Institute of Studies in Development, Environment and Security.
---------------------------------------------------------------------------

                  HIGHLIGHTS OF THE ECOSYSTEM PROBLEMS

    The purpose of this hearing is not to explore the seemingly endless 
list of problems in western water. However, the most acute of those 
problems are what push us towards making progress on the other, less 
urgent, problems. In discussing innovative solutions, it is important 
to mention some of the most pressing issues for which those innovative 
solutions are needed.
Decline of Aquatic Ecosystems
    It is becoming difficult to work on any Bureau of Reclamation 
project without stumbling over the Endangered Species Act. Members of 
this committee will be familiar with the litany of wrenching ESA 
problems the Bureau has faced in the last few years: Columbia-Snake 
salmon and steelhead; Upper Colorado fish; Rio Grande silvery minnow; 
Sacramento-San Joaquin salmon and other fish; Missouri sturgeon; 
Trinity salmon and steelhead; the Platte whooping cranes and more. In 
the news this month, Klamath Project irrigators request invoking the 
God Squad to allow them access to water despite the risk of extinction 
for salmon and suckers.
    Of course the problem does not lie in the ESA the ESA simply tells 
us that we have systematically degraded western aquatic resources 
through the enormous investment in western water projects by Congress 
and others over the last century. In fact, the ESA often provides the 
impetus to address festering problems, and provides the tough problem 
that finally brings all sides together in a settlement process.
    In some cases the ecosystem problems are fundamental and can only 
be solved by drastic solutions. The Lower Snake River is an example of 
a problem caused by dams for which there is simply no good 
technological or operational fix. An extreme solution removal is the 
only alternative to extinction for a number of salmon runs there.
    However, in many cases, projects constructed before the rise of 
environmental consideration and regulation are simply unintentionally 
destructive they were built using diversions that fish cannot pass and 
intakes that pull fish into deadly irrigation ditches. A recent study 
of fish entrainment at a Bureau project on the lower Yellowstone River 
found over 800,000 fish sucked into the irrigation system at one dam 
alone over the four-month irrigation season. <SUP>2</SUP> This 
destruction of fish is not intentional; it is a result of fish 
entrainment simply not being a design issue when the project was built.
---------------------------------------------------------------------------
    \2\ Heibert, S., R. Wydoski and T. Parks (2000). Fish Entrainment 
at the Lower Yellowstone Diversion Dam, Intake Canal, Montana, 1996-
1998. U.S. Bureau of Reclamation.
---------------------------------------------------------------------------
    The overall damage to western fish species has been extreme. We 
have already lost 20 species of western fishes to extinction in the 
last century. One hundred more fish species are considered threatened, 
endangered or of special concern in total 70%, of all native fish 
species west of the Rocky Mountain are at risk. <SUP>3</SUP> In 
addition to extinction of full species, hundreds of subspecies or 
ecologically significant units have been extirpated or endangered. The 
American Fisheries Society surveyed Pacific salmon and steelhead stocks 
several years ago: of over 400 stocks identified, 100 are already 
extinct, 214 were considered to be at moderate or high risk of 
extinction or of special concern, and only about 120 were considered 
secure. <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Minckley, W.L. (1997). Sustainability of western native fish 
resources. In W.L. Minckley (Ed.), Aquatic Ecosystem Symposium (pp. 65-
78) Denver, CO. Western Water Policy Review Advisory Commission. 
Available at http://www.den.doi.gov/wwprac/reports/aaquatic.htm.
    \4\ Nehlsen, Willa, J.E. Williams and J.A. Lichatowich (1992). 
Pacific Salmon at the Crossroads: Stocks at Risk from California, 
Oregon, Idaho and Washington. Trout Magazine, Vol.33, no. 1
---------------------------------------------------------------------------
Growth in Demand for Water
    Demand for new, assured, water supplies is growing at a time when 
essentially no unused water is available. In addition to relatively 
stable irrigation water uses, demand for explicitly recognized instream 
uses such as fish and wildlife, recreation, and aesthetics is greatly 
increasing, and demand for withdrawal and consumption for the rapidly 
growing western cities is climbing. Add to that demand the reality that 
groundwater mining withdrawal in excess of recharge is both common and 
ultimately unsustainable, and the problem is stark. In many western 
basins, more water is claimed than is typically available.
    The problem is shown graphically in the attached figure showing the 
proportion of runoff already withdrawn from the water system. In much 
of the central-west and southwest, over 85% of the annual runoff is 
used. This level of water development leaves nothing for instream use 
or for growth in urban use.
Energy
    The West now faces energy woes that pose a whole series of problems 
for the western and Federal water system. Demand for electricity in a 
time of electricity shortage and drought has caused operations to shift 
to maximum power production despite resource damage. The short-term 
problem in the West is also leading to calls for permanently relaxing 
natural resource and water quality protection in Federal and non-
Federal power production.
    Power costs affect the western water system because so much power 
is used in moving water around. Conservationists have urged use of more 
efficient diversion technology for years. A diversion dam may block 
fish passage and entrain fish into irrigation canals pumps are more 
efficient and less damaging. In much of the West, fish screens and fish 
passage on existing dams and diversions would be difficult to install 
and costly; these fixes are best designed as part of the system rather 
than being added later. In other cases, the screens and passage simply 
do not achieve the goal. Shifting to pumps often makes the most sense. 
But running pumps takes electricity and energy costs are skyrocketing. 
In the years of cheap electricity, many irrigators were willing to 
incur the cost of pumps and shifted to more modern, less damaging forms 
of diversion. But now they are paying the price through higher 
electricity costs.
Solutions
    In your invitation, you asked for creative and innovative 
solutions. There is no shortage of creativity and innovation in the 
western water system. There is sometimes a failure to communicate and 
understand perspectives, there is fear of the future, and there is a 
need for investment. Congress has a role in all of these. Given rising 
public attention to the problems, some of the solutions will have wide 
acceptance we should work through those as quickly as possible. Other 
solutions will require more careful crafting and conscious development 
of support; the alternative to those difficult and painful steps is 
continued degradation of aquatic ecosystems and ultimately extinction 
for many species and stocks.
    It should be understood, however, that western water issues are 
fundamentally the problems of the states; states issue water rights, 
are responsible for managing fish and wildlife, and are charged with 
environmental protection. Even Federal water rights are typically 
adjudicated in state forums and processes. In many cases the Federal 
role will be to encourage, cajole, and support the states in taking 
bold steps to solve the problems.
Invest in Facility Improvements
    The first level of solution is very basic bring 19th century water 
technology into at least the mid-20th Century, if not the 21st. Much of 
the irrigation system we use in the West, and much of the Reclamation 
system, is century-old technology. It was fine for its day, but it was 
not designed to deal with endangered fishes, shortages of water and 
competing demands on the system. We need significant upgrades in the 
system many of those upgrades need not be divisive. Money is going to 
be the answer for many of the problems facing us; however the money 
should not be going into new water projects. Instead Federal funds 
should be directed at enhancing the existing projects so that they are 
more efficient and provide benefits to greater numbers of people, while 
restoring affected ecosystems.
Fish Passage and Entrainment
    We should stop needlessly killing fish when fish screens would 
help. The last Congress enacted a law to support installing fish 
screens in the Northwest. There is an appropriate Federal role in 
technology development and advice, as well as funding, for installing 
fish screens throughout the Federal and non-Federal water system. We 
can avoid the wrenching ESA problems by ceasing to kill fish and other 
aquatic organisms unintentionally through entrainment in irrigation 
ditches.
    Technology improvements are also needed for many diversions. Across 
the West, diversion dams cut off access to habitat because there is 
simply no way for fish to get around the dams. In some cases, fish 
passage can be retrofit for existing dams. In others, the diversion 
should be shifted to surface or groundwater pumping. Again, there is a 
compelling Federal role for improving Reclamation dams and those on 
Federal lands. There is also a role for aid to non-Federal projects.
    I must note that fish screens and improved diversion structures are 
not a total answer to all problems of fish entrainment and passage. In 
some cases, the existing structures cannot be effectively modified, and 
should be removed. Those situations, foremost among them the lower 
Snake River hydropower dams, should not prevent application of 
technological fixes where they are appropriate and effective.
Conveyance Efficiency
    There is a huge need for increasing the conveyance efficiency of 
existing projects and on-farm water use. The best general information 
that gives an indication of how inefficiently water is used in the West 
is from the USGS's five-year assessments of national water use. 
<SUP>5</SUP> In the Pacific Northwest, where flows are an enormous 
problem because of salmon, the conveyance loss of irrigation water 
withdrawn from rivers and the ground is 31% - almost a third of the 
water is simply lost, usually through leaky ditches. In the Missouri 
region, the figure is about the same 32%. Other regions are more 
efficient, ranging from 28% loss in the Rio Grande to 6% in California. 
From a hydrologist's perspective, much, but not all, of that water 
finds its way back into the system, through runoff or groundwater 
recharge. However, water returning to streams is changed in quality, 
temperature and timing and simply removing water from rivers has 
important ecological consequences.
---------------------------------------------------------------------------
    \5\ Solley, W., R. Pierce, H. Perleman (1998) Estimated Use of 
Water in the United States in 1995, US Geological Survey Circular 1900. 
Available at http://water.usgs.gov/watuse/pdf1995/html/. Basin specific 
information referenced available at http://water.usgs.gov/watuse/
spread95.html.
---------------------------------------------------------------------------
    Individual projects and basins may be significantly less efficient. 
For instance in Montana on the Sun River, irrigation conveyance losses 
amounted to 58.5% of freshwater withdrawals over half of the water 
withdrawn from the Sun River was lost to leaky ditches. The Sun River 
is a good example of the need for conveyance efficiency investment 
because the 1920's era Reclamation project there sends over 1500 cubic 
feet per second (cfs) into the irrigation ditches and leaves barely 100 
cfs for the river. Yet more than half of that diversion never reaches 
its goal. The result is that a population of arctic grayling that the 
Fish & Wildlife Service has determined to warrant listing under the ESA 
now lives in the irrigation canal because there is little water in the 
river. Investment in conveyance efficiency, coupled with mechanisms for 
leaving the water in the river, would go a long way towards preventing 
listing of the grayling and improving the wild fishery in the Sun 
River.
    In addition to distribution system efficiency, on-farm conservation 
is needed. While this is traditionally not within the Bureau of 
Reclamation's realm, it is an important piece of the overall solution 
to western water problems, quantity and quality. Appropriate ways to 
provide incentives for on-farm efficiency must be developed.
    Efficiency improvements are a much cheaper way of obtaining 
additional water than either reuse and recycling efforts or building 
new water projects. In most places in the West there is simply no 
unused water available; additional traditional projects, even for 
necessary goals such as settling Indian water rights claims or 
forestalling ESA problems compound the problems.
    Investments in fish passage and entrainment measures, efficiency 
improvements, and recycling and reuse projects, are a terrific start on 
many of the West's problems. TU does not advocate heavy-handed Federal 
action in making facility improvements; we recognize valid property 
rights in water and community concerns. Nor are we advocating simply 
giving more money away to farmers already heavily subsidized through 
the Reclamation and Federal farm programs. The quid pro quo for 
efficiency improvements should be solving real problems.
Encourage market solutions
    That markets for water must develop in the West is part of the 
current conventional wisdom in water policy. Markets are growing 
through water banks, drought action plans and outright sales. Congress 
does, however, need to encourage western states, Federal agencies and 
water users to use these approaches.
    The growth of private water transactions to solve river and fishery 
problems is one of the most promising developments in the West. While 
the water trust movement is far from the scale of the land trust 
movement that has swept the nation over the last decade, it is growing. 
Three states are leaders Oregon, Montana, and Washington. In Oregon, 
last year there were over 50 separate water rights transactions for 
conservation purposes. In Montana 220 cfs were leased for fishery and 
river conservation. The Montana program has been so successful that a 
bill extending the 10-year lease program to 30 years to encourage 
capital investments needed to improve efficiency swept through the 
legislature without significant opposition--a sign that despite 
significant differences between environmental and agricultural 
interests, there has been enough progress to be willing to sit down and 
find out what we can agree on, and act on that agreement.
    We recognize the reluctance of many in the West to grant water 
rights for healthy river flow to state or Federal Government. A 
solution to that problem is to use third party intermediaries such as 
the state water trusts, the Nature Conservancy and Trout Unlimited to 
broker willing seller deals, and where appropriate, hold the water 
rights, or allow the landowners to convert their consumptive use rights 
to river flow right. But in many states this cannot be done. If the 
Federal Government wants to create incentives for voluntary flow 
restoration, Congress should reward the states that allow and encourage 
such conversions.
    Reclamation and the other Federal agencies are increasingly working 
on habitat and flow protection and enhancement, both in response to the 
ESA and in anticipation of ESA problems. We strongly urge Congress to 
support these efforts, and suggest that wherever possible Federal funds 
be channeled to states and third parties to efficiently complete 
transactions that would be made more difficult by direct Federal 
participation.
Promote Watershed Initiatives
    Federal agencies are notoriously fickle actors in collaborative 
efforts. Movement towards effective and successful collaborative 
watershed initiatives is often impeded by Federal agencies unsure of 
their authority to engage in the initiatives and unwilling to commit to 
actions outside of standard procedures. Congressional support, 
direction, and funding for active agency engagement in collaborative 
watershed initiatives, and increased latitude in Federal agency actions 
based upon these initiatives, would be helpful.
    Although it is outside this Committee's jurisdiction, TU strongly 
supports efforts to use incentives to address water quantity and 
quality issues. A leading example of this approach is found in the 
Fishable Waters Act of 2001, H.R.325. An amendment to the Clean Water 
Act, the FWA would provide watershed councils the funding and 
scientific and technical resources needed to design and implement 
watershed measures for protecting and restoring fish habitat to meet 
the fishable waters goal of the CWA. The state-established watershed 
councils would include the major fisheries conservation and private 
landowner stakeholders in the watershed, who will work together 
cooperatively to prepare customized plans to meet local fisheries 
habitat needs. Typical fish habitat conservation measures that the FWA 
would yield, all done cooperatively with landowners and local 
communities, would include controlling soil erosion and other forms of 
non-point pollution, removing obstacles to fish migration, such as 
obsolete dams, and providing additional flows.
Base Decisions on Good Science
    All the money and all the collaborative effort in the world are 
worth next to nothing if the facts that decisions are based upon are 
wrong. Without reliable factual information upon which to base 
decisions, the choices we face are risky gambles. The stakes are too 
high the future of western growth, development, recreation and 
biological heritage to base upon wishes, suppositions and inference 
when facts could be had. We will face risks in any event, so we should 
try to minimize them by using the best factual basis and best science 
to make decisions.
    Unfortunately the fundamental facts for water problems are at risk. 
The US Geological Survey has long provided the fundamental information 
about stream flows everyone uses for water management, flood control, 
power generation, recreation and aquatic biological resource 
management. But the streamgaging budget for the USGS has not kept pace 
with the cost of the system and many gaging stations have been closed. 
Unfortunately, hundreds of the most valuable stations the ones with 
long records, most useful for scientific research and hydrological 
analysis are gone. The streamgage system needs to be modernized and 
expanded.
    In addition to streamgage information, TU strongly supports 
enhanced basic and applied science needed to manage the Federal lands 
and the western aquatic ecosystems.
Review the Operations, Facilities and Uses of Federal Water Projects
    One of the most striking recommendations of the recent World Bank-
sponsored World Commission on Dams was that facilities and operations 
of large water projects should be periodically reviewed. <SUP>6</SUP> 
However, there is no mechanism short of an Act of Congress to review 
the purposes, operations and facilities of Federal water projects. In 
light of the growing need for water in the West, the time has come to 
create an efficient mechanism to review Federal projects and to make 
changes needed to bring the benefits in line with society's current 
needs, while respecting existing property and contract rights. A 
collaborative process, where all affected parties work together to 
achieve consensus on changes needed is the best starting model for such 
an effort.
---------------------------------------------------------------------------
    \6\ Available at http://www.damsreport.org/.
---------------------------------------------------------------------------
    In addition to the suggestions above, there are issues that need to 
be addressed that will be more controversial, and will take larger 
leaps to accomplish. For instance, Congress has a history of 
encouraging states to modernize state water laws in order to make 
Reclamation projects more efficient or legally possible; it is time for 
Congress to consider encouraging states to allow private rights for 
healthy river flows, to develop water markets and to use water 
efficiently, as a quid pro quo for needed investment in Federal 
projects. The whole realm of Federally reserved rights, for Native 
Americans as well as Federal land reservations, is politically charged, 
but absolutely needs solutions; over 200 unresolved Indian claims 
remain outstanding. Congress should work with states, tribes and 
affected persons to establish clarity in Federal water rights and to 
meet the Federal goals.
    Thank you for your attention.
                                 ______
                                 
    Mr. Calvert. Next, Dr. Philip Burgess, Senior Fellow, 
Center for the New West.
    Dr. Burgess, you may begin your testimony.

 STATEMENT OF PHILIP M. BURGESS, PH.D., SENIOR FELLOW, CENTER 
                        FOR THE NEW WEST

    Mr. Burgess. Thank you, Mr. Chairman.
    I have a statement that I would ask be included in the 
record.
    Mr. Calvert. Without objection.
    Mr. Burgess. My job today is to talk about the demographic 
trends in the West. Let me say that 11 of the 12 public lands 
States in the West headed the list of America's fastest-growing 
States. With the exception of Wyoming, which grew 9 percent, 
every Western State grew faster than the national average of 
13.2 percent. Even California, which went into the decade with 
a huge base, 29 million people, ended the decade with 33 
million people and grew at 13.8 percent. So even the sixth-
largest Nation in the world grew faster than the national 
average.
    The punchline on the rates of growth is that the sparsely-
populated but rapidly-growing interior States of the Mountain 
West are America's fastest-growing region. What we have here is 
a huge, almost nation-State, California growing faster than the 
national average, and another huge collection of States 
surrounding California in the Inter-Mountain West that are 
growing even faster, and the population base of both of them is 
about equal.
    Second, let us talk about absolute numbers. Of all the 
growth in the West, about 10 million people of the Nation's 33 
million growth, about 40 percent of that occurred in 
California; the other 60 percent occurred outside California. 
The growth in the West totalled 10.3 percent, and that accounts 
for one-third.
    The third point I want to make is about the urban-rural 
distribution. Contrary to popular belief, the West is the most 
urbanized area of the country--not if you talk about SMAs and 
conventional Census definitions, because we have capitals out 
there that do not meet the Census definition of a metropolitan 
area--but if you talk about the percentage of people who live 
in communities over 15,000 or 25,000 or 50,000, the West is at 
the top of almost all of those lists. And that continues. The 
West is about 80 percent of the people living in these 
urbanized areas, four out of five people, whereas the national 
average, depending on how you talk about urban, is more like 
one out of two.
    The second thing is that in the West, it is not just the 
cities, it is also the rural areas. In other parts of the 
country, this Census shows that we have had a tremendous return 
to the urbanized areas. That has happened in the West. The 
cities are growing very rapidly all through the West. But also 
in the West, small towns and rural areas are growing, and that 
is what sets the West apart very dramatically.
    For example, all 29 of Utah's counties, both urban and 
rural, gained population. All of Washington State's counties 
gained population. All but six of Colorado's 63 counties gained 
population. All but two Idaho counties gained population, and 
28 of 44 Idaho counties topped the Nation's growth average.
    So when we start looking at what is happening in the West, 
it is not just growth in the metropolitan and urbanized areas; 
it is also huge growth in the urban and small towns and rural 
areas.
    So it is a very important new development that just started 
happening toward the very end of the 1980's and took off in the 
early part of the 1990's.
    The third thing is that the interstate corridors in the 
West are magnets for growth. Much of Montana's growth is along 
I-90. Much of the growth in Washington and Oregon is clustered 
around I-5. Utah's rapidly growth Wasatch Front is bisected by 
I-15. The 10 most populous counties in Colorado straddle the I-
25 corridor. In fact, the I-25 corridor in Colorado today has 
more people than the entire State of Colorado had in the 1990 
Census.
    Another important new development in the West is the 
emergence of what we call leapfrog counties. What we are seeing 
is that people are jumping over the county adjacent to a 
metropolitan area and going out two counties to live and work.
    Why is this happening? We have gone out and interviewed a 
lot of these people, and it is happening because with new 
telecommunications technology, people feel free to move out 
farther; they can come in later because they can work at home 
in the morning; they can come home later at night; they can 
work 4 days a week instead of 5 days a week and stay connected 
to their office on the fifth day while they work at home.
    In our view, the growth of these leapfrog counties at a 
time when everybody is focused on reducing sprawl shows a 
tremendous disconnect between where a lot of the policy debate 
is and where people are voting with their feet.
    Fourth is the growing diversity. Only the South and the 
West benefited from domestic migration. The Northeast and 
Midwest suffered a net out-migration, and very substantially in 
the Northeast. On the other hand, all regions of the country 
experienced substantial population growth from immigration, 
although most of the new immigrants came to the South and to 
the West, and to the West by a nearly two-to-one ratio.
    So the biggest increase of immigration came to California, 
Washington, and Arizona and are having a huge impact not just 
on the economies but also on the populations.
    Let me close by saying that I think one of the most 
important changes in the West has been the economic 
diversification of what were once monocultures relying on 
agriculture or mining. Today, the new economy has moved full 
force into the Inter-Mountain West with spillover from 
California--computers, software, microprocessors, multi-media, 
environmental control systems, medical instruments. Companies 
are moving there because for the first time in history, we have 
people-driven growth. In the past, growth was always driven 
because of the availability of jobs. Today what is happening is 
that high-end knowledge workers, the kinds of people these new 
economies need, are moving to the West for other reasons, for 
personal reasons, life-style reasons, quality of life reasons, 
and now, companies are following them there in order to get 
access to the talent, which is the crown jewel of the new 
economy.
    Thanks very much.
    Mr. Calvert. Thank you, Dr. Burgess.
    [The prepared statement of Dr. Burgess follows:]

Statement of Philip M. Burgess, Ph.D., Senior Fellow for Technology and 
                    Society, Center for the New West

    Mr. Chairman. My name is Phil Burgess. I am a senior fellow for 
Technology and Society at the Denver-based Center for the New West. I 
have been a student of the forces shaping the New West since 1975, when 
I first moved to Denver to serve as executive director of the 
Federation of Rocky Mountain States. I appreciate the opportunity to be 
here to day to talk about the demographic trends that are shaping the 
West today.
    Census 2000 overview. Preliminary data from Census 2000 show 
clearly that the 11 public lands states <SUP>2</SUP> of the American 
West head the list of America's fastest-growing states and continue to 
attract people both Americans looking for new opportunities and 
immigrants in large numbers.
---------------------------------------------------------------------------
    \2\ The 11 public lands states of the lower 48 include Arizona, 
California, Colorado, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, 
Washington and Wyoming.
---------------------------------------------------------------------------
    First, consider growth measured by the percent change, 1990 - 2000:
    <bullet> LAll 5 of the top 5 fastest growing states are in the 
West: Nevada, Arizona, Colorado, Utah and Oregon
    <bullet> LThe West also includes 6 of the top 10, 8 of the top 15, 
and 10 of the top 20. Only Wyoming (rank 22) did not make the top 20 
fastest growing states.
    <bullet> LPunchline: The sparsely-populated but rapidly-growing 
Western states make the West America's fastest growing region.
    Second, consider growth measured by absolute members, 1990 - 2000:
    <bullet> LTwo of the top 5 (California and Arizona) and 4 of the 
top 10 (California, Arizona, Washington and Colorado) are located in 
the West.
    <bullet> LAdding Nevada (13), Oregon (16) and Utah (21), 7 of the 
top 25 are in the West.
    <bullet> LNew growth in the West totaled 10.2 million. Of this 
total, 80% occurred in the top 7 including 40% (or 4.1 million) in 
California.
    <bullet> LPunchline: 1 out of every 3 new persons in America 
counted in Census 2000 is located in the Western US and nearly half of 
those are in California with the rest distributed among the remaining 
Western states.
    Third, the West is become more diverse as many of the new 
immigrants, especially Hispanic and Asian immigrants, are settling in 
the American West.
    Migration. Since World War II, the West and the South have been 
America's fastest growing regions. This trend continued during the 
1990s as more Americans migrate to the American West and as more of 
America's new immigrants, especially those from Asia and Mexico, settle 
in the West.
    As a result, Westerners are younger, more ethnically diverse, and 
better educated than the rest of the country. Examples: Washington 
state has the nation's highest percentage of high school graduates; 
Colorado the highest percentage of college graduates; New Mexico leads 
the country in Ph.D's per capita.
    Today, the West is also the destination of choice for the footloose 
opportunity seekers including Americans who are moving in droves to 
what Rand McNally calls America's ``mild and wild'' places and 
immigrants from other countries, especially from Mexico and Asia, who 
are major assets providing energy, connections and know-how to the 
West's entrepreneurial and increasingly globalized economy and they 
reinforce American idealism: They know why they are here.
    Finally, because the West is attracting so many people from New 
Economy knowledge workers to professional nomads and retirees we have 
the phenomenon of population-driven growth as people move to the West 
to provide services to the region's growing population. This is quite a 
change
    Urbanization. Zane Grey, Shane and Lonesome Dove, the solitary 
cowboy riding fence on the open range these images come to mind when 
you think about the West. Even today, the Big Sky, large ranches, 
trekking or mountain biking in what Joel Garreau called the ``empty 
quarter'' are common scenes of the West. Despite these gripping rural 
images, however, the West is America's most urbanized region. More than 
4 of 5 Westerners live in urbanized areas unlike the rest of the U.S., 
where nearly 1 of 3 lives in a rural setting.
    Most of the West resembles an archipelago of urbanized areas 
separated from each other by vast expanses of largely empty land. 
Relations among these ``city-states'' and between these cities and 
their rural hinter-lands increasingly define important fault lines in 
the politics of the West.
    Diversification. For most of its economic history, the West has 
been a natural resource colony of the West. Western oil, gas and coal 
fueled humming factories to the East. Western beef and grain fed their 
workers. Western timber provided housing for their people.
    The West is still the nation's natural resource treasure house and 
extractive industries still play an important role in the culture and 
economies of the West. But the relative importance of natural resource 
industries has decreased with economic diversification especially as 
the new knowledge-based industries on which America and the region's 
economic future increasingly depend.
    The nation's economic center of gravity is shifting west. Example: 
Since 1983, trade across the Pacific has exceeded trade across the 
Atlantic and is now more than double the Atlantic trade.
    Another example is the growth of the West's manufacturing base. For 
decades California and Washington have been the world leaders in 
aerospace, America's principal manufacturing export. But few have 
noticed that Los Angeles is now the center of the nation's apparel 
industry, that one of America's most productive steel mills is in Utah, 
that California is America's largest industrial state and its largest 
agricultural state or that Western states are found among the top tier 
in manufacturing job growth.
    Western states especially California, Oregon, Washington, Colorado 
and Arizona hold a disproportionate number of the Inc. 500 ``fastest 
growing'' businesses in America. Midway through the decade, for 
example, all of Forbes magazine's top 10 cities for starting New 
Economy business were located in the West.
    There are important changes that advantage the West and make it 
attractive to the new migrants. Example: Entertainment now rivals space 
exploration and defense as the driving force for the development and 
application of new computing, software and multimedia technologies. 
Metropolitan Denver has become a global hub for the communications 
industry both cable and telecommunications and is the home of 
CableLabs, the industry's R&D unit.
    Many of the nation's most important New Economy companies are 
located in the West: 11 of 14 semiconductor manufacturers listed by the 
Business Week 1000, 14 of 22 manufacturers of computers and 
peripherals, and 18 of 31 software firms including the two largest are 
headquartered in the West. Of the top six biotechnology firms, the 
three largest are in the West. And the West is home to the nation's 
aerospace industry.
    The West is a leader in these foundation industries of the New 
Economy for several reasons. First, the region's social, political and 
institutional atmosphere is more conducive to start-up industries. 
Example: Expansion Management magazine consistently ranks the Western 
states in the top categories of their business climate ratings.
    Second, talented people are the crown jewels of the New Economy, 
and talented people are in short supply. Hence, because we live in a 
sellers' market for talent, New Economy industries are attracted to the 
West because more of the entrepreneurs and knowledge workers on whom 
these industries depend prefer lifestyles and the natural and cultural 
amenities that are abundant in the West.
    Globalization. International trade is America's fastest growing 
commercial sector.
    This pattern is also found in the Western states, where exports are 
a major source of new jobs. Western exports come from both the 
traditional resource industries (e.g., agriculture, coal) and from the 
new knowledge-based industries. Examples: ``edu-tainment'' (computers, 
software, entertainment, multimedia) and business and professional 
services (telecommunications, management consulting, design and 
construction, financial).
    As global economic activity has shifted from the Atlantic to the 
Pacific, Los Angeles is poised to be in the 21st century what New York 
was during most of the 20th, London in the 19th, and Paris in the 18th 
a ``world city,'' a dominant center of world commerce, culture and 
fashion.
    Seattle (like Atlanta and Miami in the South and Chicago on the 
Great Lakes) is already an established global hub; Denver, Salt Lake 
City, Portland and Phoenix are emerging global hubs. The coming Pacific 
Century will also be an American Century and will draw even more people 
to the region.
    Gentrification. The revolution in telecomputing (computers plus 
software plus high-speed, broadband networks) and rapid advances in 
express mail are quickly eliminating most of the liabilities of the 
West's remote location of many of the West's cities and towns. One 
result: More entrepreneurs and freelance professionals writers, 
brokers, software designers, analysts, engineering and management 
consultants are migrating to the West's small towns and urbanized areas 
where they use new telecomputing technologies to create new businesses 
as they remain connected to the outside world by faxes, modems, express 
mail and airplane tickets. We call these people Lone Eagles. Two or 
three Lone Eagles can be a major economic boon to a small town.
    As we enter the 21st century, the West has many assets that will 
continue to attract people its geographical location, the richness of 
its natural resources, the education and energies of its peoples, the 
youthfulness of its population and openness of its political 
structures. The West also has growing political clout, as shown by the 
Electoral College, where the region accounts for one out of three votes 
up from one out of five (16%) in 1952.
    But the West's greatest advantage may be its culture. In the words 
of the great Western writer Wallace Stegner, the West is ``the native 
land of hope.'' And hope is a powerful magnet for people not just for 
Americans, but for people from around the globe.
                                 ______
                                 
    Mr. Calvert. The next witness is Mr. Ronald E. Young, 
President of WateReuse Foundation.
    You may begin your testimony, Mr. Young.

  STATEMENT OF RONALD E. YOUNG, PRESIDENT, WATEREUSE RESEARCH 
                           FOUNDATION

    Mr. Young. Thank you. I am Ron Young, and I am from 
Southern California, Mission Viejo. I am President of the 
WateReuse Foundation, and I also serve on the Research Advisory 
Board of the National Water Research Institute.
    In my career, I have worked both in the public and the 
private sectors, so I have had an opportunity to look at 
environmental engineering and the water business from both 
sides of the cup.
    I have some descriptive literature on NWRI and WateReuse, 
and I will submit that for the Committee's reference.
    Mr. Young. I have been asked to talk today about the need 
for research and technology improvements in water recycling and 
desalination.
    My rhetorical question is: What are the two greatest 
drivers to creating new water supplies? The first answer to 
that question is population growth. I feel like I wasted my 
time putting this together after hearing all the other speakers 
talk about it. We see the U.S. population projected to double 
and then quadruple in the next 100 years. We see Southern 
California being in a growth mode in the five-county Southern 
California area, where in the next 20 years, they talk about 
increasing the population by 6 million people in an area that 
currently houses 10 million people. They will be doing that 
without adding any additional land to the development area. 
That 6 million people is the equivalent population of two 
Chicagos, which would be 3 million people each that we see now.
    The second answer to that question is threatened water 
supplies. As you have heard, our water supplies have real 
competition nowadays, and there are also issues of 
contamination. One example of competition that we heard relates 
to threatened or endangered species. That number of species has 
risen from 300 to 1,200 in the last 20 years, and with that 
rise is a need for environmental water to be able to satisfy 
that progress.
    Looking at a specific example, the CALFED Bay-Delta 
process, they have identified an order of magnitude of water of 
about one million acre-feet that will be required for 
environmental needs. That happens to be the amount of water 
that could supply the population of two Chicagos.
    When we look at contamination, we know that that can come 
from nature by adding salts to the ground water, making it 
brackish and not fit for irrigation. We also know that leaking 
tanks and drainage flows from livestock and agriculture can add 
to contamination in areas like Riverside County, Ontario, Chino 
Basin area, where the dairies have contributed, and solutions 
are being worked out with desalination as we speak.
    But how can water treatment technologies come to the 
rescue? New technologies supported by applied research are 
critical to providing safe and sustainable treatment for 
recycling and desalting water to meet our future urban, 
industrial, agricultural, and ecosystem needs.
    The two key areas are wastewater recycling and water 
desalting. Wastewater recycling is a common practice in many 
States, but it needs to be more than just irrigating golf 
courses and playgrounds. Florida, Texas, Arizona, California, 
Oregon, and Washington all have such projects. We need to add 
industrial and commercial uses such as cooling water, car 
washing, and toilet flushing to that list of uses.
    Recycling for potable use is also possible. As an example, 
again putting numbers to some of the flows, the four major 
wastewater outfalls in Southern California from L.A. City, L.A. 
County, Orange County, and San Diego, discharge about a billion 
gallons a day of fresh water to the Pacific Ocean. That is the 
equivalent amount of water that could be used to supply water 
to two Chicagos for 6 million people.
    Desalting is also key. Recycling brackish water and other 
water, desalting those waters, is important as a new source of 
supply. A 1997 Bureau of Reclamation report reported that about 
75 percent of the desalting is done on brackish water, and that 
is carried out in California, Florida, the Virgin Islands and 
Texas leading the Nation in desalting treatment plants.
    Ocean desalting comprises only about 10 percent of the 
desalting and is an area that needs more work. The Virgin 
Islands lead the way there.
    Applied research is needed to provide a scientific basis 
for our country's engineers and water professionals to use new 
technologies to facilitate development of future water 
supplies. To that end--and I will also submit these to the 
Committee--the National Water Research Institute has completed 
national meetings where desalinization and water research 
priorities have been put together by a panel of national 
experts. They met for three days to study each of these 
priorities, and those are the priorities that are in my 
testimony. Because of the Committee's time requirements, I will 
not go through all of that.
    In conclusion, Mr. Chairman, with the rapidly growing 
populations of the Sun Belt States of California, Arizona, 
Texas and Florida, coupled with the multiple threats to water 
supplies, there will be a continuing need to develop recycling 
and desalination technologies to treat new sources of water in 
a safe, sustainable, and economic manner.
    Mr. Chairman, we know that applied research works. As an 
example, research and applied technologies in the field of 
personal computing have increased the power of PCs from 200 to 
800 megahertz in the last four years, while reducing the cost 
of those units from $4,000 to $1,500.
    Reverse osmosis desalting costs have dropped due to changes 
in technology from about $15 per 1,000 gallons in the 1950's to 
about $2 per 1,000 gallons today.
    The common thread in these two examples is power. The major 
operating costs for desalting are chemicals and power. Better 
membranes in desalting will reduce fouling, and that will 
reduce chemical usage. Better membranes using lower pressures 
will reduce power costs and requirements. Even with the 
desalting costs reduced to today's levels, they are still above 
the average cost of conventional treatment. Improving treatment 
economics and the value of water through applied technology 
could alleviate future water shortages.
    Finally, Mr. Chairman, we need the continued support of 
your Subcommittee to allow applied technology research to 
address the nationwide research priorities that I have outlined 
here. To bring that research into production, we need Congress 
to provide additional resources for Title XVI funding.
    Therefore, as your Subcommittee deliberates on program 
priorities, we ask that you consider ranking water technology 
research and Title XVI at the very top of the priority list.
    I thank you for this opportunity to testify.
    [The prepared statement of Mr. Young follows:]

     Statement of Ronald E. Young, P.E., DEE, President, WateReuse 
                               Foundation

    Thank you, Mr. Chairman and members of the Subcommittee on Water 
and Power for the invitation to discuss how water recycling and 
desalination can increase water supplies in the arid West.
    By means of a self-introduction, I am Ron Young, a resident of 
Mission Viejo, CA. My professional career of 35 years is entirely in 
the Environmental Engineering field. I am a Registered Civil Engineer 
in CA and a Diplomate of Environmental Engineering with the American 
Association of Environmental Engineers. I am a Senior Associate with 
Malcolm Pirnie, Inc., one of 1200 employees in this national century-
old exclusively environmental engineering consulting firm. My 
background includes both private and public sector experience with 11 
years as General Manager of the Irvine Ranch Water District, one of the 
nation's leaders in water recycling. I serve as a member of the 
Research Advisory Board of the National Water Research Institute and as 
President of the WateReuse Foundation Board.
The WateReuse Foundation (WRF)
    The WateReuse Foundation is a non-profit organization established 
in 1993 by representatives of public and private sector organizations 
to develop the science and technology necessary to support and enhance 
the water recycling needs of the 21st century. The Foundation is the 
only national organization dedicated to the research and educational 
needs of the water recycling industry and ultimately the public.
    The WateReuse Foundation provides education and research to benefit 
the environment, sustain agriculture, and meet the needs of urban and 
industrial water users. It produces high quality research in the areas 
of technological, social, and economic advancement designed to lead to 
the creation of cost-effective, safe and reliable recycled water 
supplies. I would like to submit for the record additional information 
on the Foundation and the WateReuse Association that I believe may be 
useful for this Subcommittee as you consider policy responses to meet 
the needs of the west.
What are the two greatest drivers to create new water supplies?
    The American Association for the Advancement of Science Annual 
meeting in San Francisco last month presented a session on ``the 
Collapse of Complex Societies''. The overriding theses presented by 
speakers was that of all the factors contributing to the collapse of 
Rome, Babylon and the Mayan empire,
    Two stood out: too many people and too little fresh water.. Dr. 
Vernon Scarborough, an archaeologist at the University of Cincinnati 
pointed out that the Mayans ``suffered.from problems that are 
startlingly similar to those today''.
First, Population Growth.
    In a recent American Water Works Association Research Foundation 
(AwwaRF) study to assess the future of water utilities, they cited a U. 
S. Bureau of Census projection that the U. S. population would double 
by 2100 using moderate fertility, immigration and longevity 
assumptions. The same projections quadruple using aggressive 
assumptions. On a more immediate timeframe, the Southern California 
five County area population growth in the next twenty years is 
estimated to increase by 6 million people or ``two Chicagos'' within 
the same land area that the current 10 million residents occupy. This 
growth is from the March 2001 report; Sprawl hits the Wall, Confronting 
the Realities of Metropolitan Los Angeles, The USC Southern California 
Studies Center and The Brookings Institutional Center on Urban and 
Metropolitan Policy.
Second, Threatened Water Supplies.
    Traditional water supply sources have real competition and 
contamination issues that will reduce growth rates to match the 
population increases. Water is a finite resource. Every school child 
learns that 3/4 of the earth's surface is covered in water. What often 
is lost in this fact is that only 5% of that volume is fresh water. 
Seventy percent of the fresh water is locked in the frozen ice caps at 
the tips of our planet. As the number of species listed as threatened 
or endangered has risen from 300 to 1200 in the last 20 years, the 
environmental needs for water have also increased. In California, 
environmental water needs being examined as part of the Bay-Delta 
environmental review process are in the order of magnitude of the water 
needs of ``two Chicagos''. New environmental water would not be 
available for urban or agricultural supply. In addition to this need, 
we are beginning to witness international demands for ecosystem water 
supplies that will affect our abilities to meet domestic demand.
    Contamination of water supplies also threatens to reduce available 
supply for growing needs. Sources of contamination can be from nature, 
such as salts to create brackish water not fit for irrigation or man-
made drainage that can contain chemicals from leaking tanks, waste 
flows from livestock/agriculture or small quantities of substances we 
are only now able to detect using extremely sophisticated 
instrumentation.
How can water treatment technologies come to the Rescue?
    In that same AAAS meeting, speakers pointed out that previous 
prophets of doom, such as the English politician economist T. R. 
Malthus and the ``Club of Rome's'' report, entitled The Limits to 
Growth, which in 1972 predicted the world's population would overwhelm 
its resources, have been proved wrong so far by the rapid progress of 
technology.
    New technologies supported by applied research are critical to 
providing safe and sustainable treatment for recycling and desalting 
water to meet our future urban, industrial, agricultural, and ecosystem 
demands. As pristine water is already used we will search for new 
sources to meet society's needs. This search has already begun.
    The recycling of wastewater is no longer an option just for 
irrigation of parks and golf courses but is used for residential lawns, 
toilet flushing in office and industrial buildings, cooling water in 
industrial (refineries and power generating plants) and commercial 
buildings, car washes and the replenishment of water sources used for 
drinking water. These uses are underway in Florida, Texas, Arizona, 
California, Oregon and Washington. Several communities around the Great 
Lakes are also relying on reusing water supplies to comply with 
restrictions on increasing lake pumping. While today's hearing focuses 
on the West and its future water needs, the point that I would like to 
add is that water demands and supply are increasingly becoming matters 
of concern for areas without regard to the area's climate. For example, 
Florida is now in the midst of a drought even though historically the 
State receives 43-44 inches of rainfall annually.
    We will also look to recycled wastewater discharged into the ocean 
through outfall pipes as a source of drinking water. The one billion 
gallons per day from the four major Southern California outfalls could 
meet the needs of a little more than two million households or ``two 
Chicagos''. This is a prime topic for research to prove the safety and 
reliability of treatment given the histories of projects in Denver, San 
Gabriel, Dublin San Ramon, Tampa Bay and San Diego.
    We will look to desalting brackish water (too salty to drink but 
not as salty as sea water) to blend into drinking water supplies to 
optimize local sources. A 1997 Bureau of Reclamation Report No. 24 
lists 178 potable water-desalting plants in the U.S. with about 75% 
using brackish water. The plants were located in 21 states and 
territories with Florida (90), California (17), Virgin Islands (14) and 
Texas (11) having the majority. Most of the plants are small, less than 
1 million gallons per day.
    We will look to the ocean as a source that is close to coastal 
growth areas. The 1997 survey listed about 10% of the desalting plants 
using the ocean as a source. The largest are in St. Thomas and St. 
Croix, Virgin Islands Water and Power Authority with a capacity of 8.1 
million gallons per day. There has been only slight growth in ocean 
desalting compared too brackish and membrane softening, which are 
growing in double-digit percentages. Total U.S. desalting is about `` 
3/5 of a Chicago''. The use of recycling and desalting has only 
scratched the surface and needs more use to become accepted and 
commonplace as a source of water.
    Applied research is needed to provide a scientific basis to the 
country's engineers and water professionals to use new technologies to 
facilitate development of future water supplies. To that end the 
National Water Research Institute has assembled two Research Workshops 
of nationally recognized experts and leaders to develop Research 
Priorities in the field of Non-Potable Water Recycling (May, 1999) and 
Desalination (January, 2001).
WRF Research Agenda
    The WateReuse Foundation's prioritized research agenda was 
developed through a workshop held in May 1999 by the National Water 
Research Institute on water recycling. Workshop participants developed 
a list of 25 priorities with the top 10 plus one (salinity management) 
becoming the research agenda of the WateReuse Foundation. The 11 
research priorities are as follows:
     1. LMicrobial risk assessment methodologies as a tool to help 
establish water reuse criteria;
     2. LIdentify reuse criteria that are both protective of public 
health and enable maximum flexibility and efficient use of treatment 
technologies;
     3. LUnderstand the pathogen inactivation relationship and 
performance parameters for various disinfection and treatment processes 
to develop cost-effective public health protection;
     4. LDevelop a program to quantify, measure, compare, and 
communicate relative levels of safety of non-potable reuse to the 
public and policymakers;
     5. LDevelop water quality standards for chemical constituents;
     6. LEstablish a rational basis for demonstrating equivalent 
treatment with alternative processes for pathogen removal/inactivation;
     7. LEnsure that recycled water is microbiologically safe;
     8. LMaintain water quality in the reclaimed water storage/
distribution system;
     9. LStandardize protocols for field-testing of recycling equipment 
and practices;
    10. LDevelop monitoring strategies to verify treatment and 
disinfection reliability; and
    11. LConduct salinity impact, source control, and treatment 
studies.
    These 11 research priorities form the basis for the Reuse 
Foundation's research program in 2001; this program is being carried 
out in partnership with the U.S. Bureau of Reclamation. This 11-point 
research program will also act as the basis for the Foundation's Annual 
Research Conference in Monterey, CA in June 2001.
Proposed Scope of Work and Research Agenda for 2001
    The WateReuse Foundation's Research Committee convened a meeting on 
February 23 to select an initial group of projects for funding in the 
year 2001. After considerable deliberation, the Committee selected the 
following projects for funding. The estimated cost of each research 
project is shown in parentheses.
    <bullet> LInvestigate the Effectiveness of Treatment Technologies 
to Eliminate Precursors or Destroy/Remove Nnitrosodimethylamine NDMA;
    <bullet> LDevelop and/or Refine Analytical Methods for NDMA;
    <bullet> LLong Term Edible Crop Irrigation Project;
    <bullet> LDevelop a Better Understanding of Political Opposition to 
Potable Reuse Projects;
    <bullet> LInvestigate Removal of NDMA in Various Soil Types to 
Expand the Knowledge of NDMA Fate and Transport; and
    <bullet> LInvestigate the Effectiveness of Low and Medium Pressure 
UV to Destroy NDMA.
    At its January 29 Board meeting, the WateReuse Foundation's Board 
of Directors approved funding for two ongoing projects being led by the 
AWWA Research Foundation:
    <bullet> LSalinity Impact and Source Control; and
    <bullet> LCharacterizing Microbial Water Quality in Non-Potable 
Reclaimed Water Distribution Systems to Optimize End Uses.
    The WateReuse Foundation also is contributing to two research 
projects dealing with pharmaceutically active and endocrine disrupting 
compounds being jointly funded by the Joint Water Reuse Task Force, a 
coalition consisting of the AWWA Research Foundation, the Water 
Environment Research Foundation (WERE), and the National Water Research 
Institute (NWRI).
    These 10 projects, in addition to several existing projects 
initiated in previous years, constitute the WateReuse Foundation's 
research agenda for 2001. The WRF is actively pursuing matching funds 
to accomplish this agenda.
Desalination Priorities
    The top ten priorities from the NWRI Workshop out of 18 issues 
developed by a panel of 27 national researchers, utility, business and 
consulting experts follow:
     1. LResearch and Development to Improve Membrane Process 
Technology;
     2. LDevelop an Education and Public Relations Strategy to 
Facilitate the Implementation of Desalination Projects;
     3. LNational Desalting and Water Quality Improvement Act;
     4. LDevelop a Comprehensive Framework to Guide the Decision-making 
Process for Potential Desalination Users;
     5. LConcentrate and Waste Management;
     6. LEnergy Reduction for Desalination Plants;
     7. LLook Outside-the-Box for Innovative Solutions;
     8. LDetermine the Value of Water for Different Water Uses;
     9. LImprove the Fundamental Understanding of Membrane Science;
     l0. LEstablish a National Advisory Panel for Developing Water 
Purification Technologies to Increase Water Supplies.
Conclusion
    Mr. Chairman, with the rapidly growing populations in the ``Sunbelt 
states'' of California, Arizona, Texas, and Florida, coupled with the 
multiple threats to water supplies there will be a continuing need to 
develop Recycling and Desalination Technologies to treat new sources of 
water in a safe, sustainable, and economic manner.
    Mr. Chairman, we know Applied Research works. As an example, 
research and applied technologies in the field of personal computing 
have increased the power of PC's from 200 to 800 MHz in the last four 
years while reducing costs from $4,000 to $1,500. Reverse osmosis 
desalting costs have dropped due to changing technological applications 
from $15 per 1,000 gallons in the 1950's to $5.50 in the 60's to about 
$2 in 2001. The common thread in these examples is power. The major 
operating cost for desalting are chemicals and power. Better membranes 
with reduced fouling will reduce chemical usage. Better membranes using 
lower pressures will reduce power costs. Even with the desalting costs 
reduced to today's levels they are still above the average costs of 
conventional treatment. Improving treatment economics and the value of 
water through applied technology research could alleviate future water 
shortages.
    Mr. Chairman, we need the continued support of your Subcommittee to 
allow Applied Technology Research to address the nationwide Research 
Priorities outlined herein. To bring that Research into production we 
need Congress to provide additional resources for Title XVI funding. 
Therefore, as your Subcommittee begins deliberations on program 
priorities, we ask that you consider ranking 1) water technology 
research and 2) Title XVI at the very top of the priority list. We also 
request that you work with your colleagues on the spending committee to 
ensure the appropriation of adequate budgetary resources for these 
priorities.
    Thank you for the opportunity to share the views of the WateReuse 
Foundation and the National Water Research Institute with you today. 
Both organizations stand ready to assist you and the Subcommittee. I 
would be pleased to respond to any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Calvert. Thank you.
    It has been excellent testimony from all the witnesses 
today. I think you have covered the waterfront, so to speak, as 
far as the various needs and potential solutions that may be 
out there.
    To start off, I will ask my questions, and then we will 
rotate among the various Members who are here.
    Ms. Salisbury, what do you think are the most important 
actions that we need to take to mitigate drought conditions in 
this country?
    Ms. Salisbury. I think, Mr. Chairman, that the most 
important thing the Congress could do is to try to provide for 
a way for drought to be coordinated among the Federal agencies. 
That would mean probably designating the lead agency as the 
coordinating agency.
    Mr. Calvert. Okay. That leads to another question. What 
would be the relationship between water storage and 
coordination with various agencies and drought preparedness--do 
you think that that is handled very well?
    Ms. Salisbury. I think it probably is not handled well, Mr. 
Chairman, partly because we do not get the data that we need, 
the appropriate data or enough data, to determine when we are 
in a drought situation, to take those steps that we need to 
take to conserve more.
    I know that in my own State of New Mexico, we do not 
coordinate with the Federal Government very well to know when 
there are going to be drawdowns on the reservoirs. Right now, 
we are talking about doing drawdowns on certain reservoirs to 
provide more water downstream for the silvery minnow, which is 
an endangered species in New Mexico. Luckily, we are not in a 
drought situation, so that will not be exacerbated in any way, 
but it could be.
    Mr. Calvert. Do you have any recommendations to increase 
water supply in the West and help coordinate not only with 
Federal agencies but with the environmental community as far as 
being able to in effect increase the amount of water that we 
presently have in order to meet these various requirements--
ESA, urban uses, et cetera?
    Ms. Salisbury. Mr. Chairman, there are probably a lot more 
people in this room who are qualified to answer that question 
than I am.
    Mr. Calvert. I did not know if your Western Drought 
Coordination Council had made any official recommendations for 
the Congress.
    Ms. Salisbury. We have made some recommendations, Mr. 
Chairman, through conservation measures, to increase the amount 
of water that may be available, and--
    Mr. Calvert. Certainly, I think conservation is supported 
by everybody, but I was thinking primarily of new supplies as 
well. Any suggestions would be welcome.
    Mr. Malloch, does Trout Unlimited support the removal of 
dams in the Western river basins? Specifically, what is Trout 
Unlimited's position on removal of four Snake River dams and 
the Glen Canyon dam?
    Mr. Malloch. The short answer is that we support removal of 
a very small number of dams that have extreme problems. The two 
sets of dams that you just mentioned are good examples. We do 
support removal of the Snake River dams, because based on the 
science as we understand it, there is no other alternative to 
preserving the stocks of salmon on that river.
    If I may just finish, on Glen Canyon, we have not taken any 
position in support of removal of that dam.
    Mr. Calvert. Do you think that you could work with various 
groups to find an alternative to removal of dams, technology 
being what it is? Have you looked into that at your 
organization to find alternatives to dam removal?
    Mr. Malloch. Absolutely.
    Mr. Calvert. And you have found no other alternative other 
than dam removal?
    Mr. Malloch. Based on the science as we understand it now 
and the actions that have been taken to date, removal of the 
Snake River dams is the only alternative to extinction. Given 
the decisions that have been made about removal, we are 
actively working to implement the recovery plans and doing 
everything we can to make sure that those are effective.
    Mr. Calvert. You mentioned in your testimony that the 
Forest Service is using a form of watershed initiatives in 
negotiations over bypass flow provisions. Can you give an 
example of that?
    Mr. Malloch. Yes. In Colorado, there are three National 
Forests where the Forest Service is using what I believe they 
call the ``pathfinder process.''
    We understand that bypass flows are often very 
controversial. In Colorado, they are quite controversial. If 
there is a way to achieve the goal of meeting the needs of the 
natural resources without the Forest Service exercising that 
bypass flow authority, we are all for it.
    At the same time, I think it is necessary in the 
negotiations for the Forest Service to have that authority in 
case the negotiations, the watershed initiatives, do not work.
    Mr. Calvert. You mentioned in your testimony that we have 
already lost 20 species of Western fish. What is the source of 
that information?
    Mr. Malloch. That is Professor Minckley at University of 
Arizona, and it is a report that he prepared for the Western 
Water Policy Review Commission. The reference is in my 
testimony.
    Mr. Calvert. Thank you.
    Ms. Solis?
    Ms. Solis. Thank you, Mr. Chairman.
    I would like to also thank the Chairman for bringing this 
panel together. I think it would have been very interesting to 
see reactions by the previous panel to see how they might help 
us address some of these issues.
    I am very delighted to hear that the Western Governors' 
Association has a proposed plan to put forward. Some of the 
ideas are really great, but I would ask you what is it going to 
cost us to do that.
    Ms. Salisbury. Mr. Chairman, Congresswoman Solis, at this 
point, the drafts that I have seen of the legislation would set 
up a coordinating group and would try to streamline some of the 
authorities that currently exist. I think that presupposed in 
the legislation, however, is that some of these programs that 
currently exist today would be funded. The way I understand how 
some of them work, they are authorized but not necessarily 
funded from year to year.
    Ms. Solis. So we need to do a better job, then, of 
bringing, as you said earlier in your testimony, folks 
together, and there could potentially be a cost savings?
    Ms. Salisbury. I would think so. I would hope so. And not 
only that, it would be more seamless for the customer, for the 
person out there trying to use some of the authorities that 
currently exist. It can be mind-boggling if you are a farmer or 
a rancher, and you are facing devastation, and you have no idea 
or clue where to go, and the local agency that you are seeking 
help from may not necessarily know what exists in other 
agencies. It is a pretty daunting task.
    Ms. Solis. Just one last comment for the last speaker 
regarding the use of water reusage and programs there. I know 
that the State of California has used and implemented many 
programs to use gray water and reclaimed water, for example, on 
some of their university campuses. I wonder if the Federal 
Government has set any kind of example in moving that kind of 
technology forward with our own public lands that we hold, or 
facilities. I would be anxious to hear--maybe this is a 
question for the other panel--if there has been any movement in 
that way to kind of set the tone, so to speak, as to what kinds 
of innovative technologies could be undertaken and their 
usefulness.
    Maybe you know of some of those that have been done by the 
Federal Government. I do not have any knowledge of that.
    Mr. Young. If I may, I know of no national policy for water 
recycling or reuse of wastewater, although in California, as 
part of the CALFED process, all the stakeholders did come 
together and sign a common proclamation, which was all the 
environmental and research agencies of the State of California 
Department of Fish and Game, Fish and Wildlife, the Federal 
Government, Bureau of Reclamation, EPA, Corps of Engineers. 
They signed a supporting proclamation along with the WateReuse 
Association, encouraging and supporting water reuse, so we can 
plan to move ahead and take advantage of available 
opportunities with Title XVI funds. But it was just at that 
kind of umbrella level that it was moved forward.
    Ms. Solis. It is interesting and may be something that this 
Committee might want to ponder if there is such an inclination 
to want to move in that direction to try to better utilize 
technology and advance that.
    Mr. Calvert. If the gentlelady will yield, we are going to 
do exactly that, as a matter of fact, as we move forward on our 
CALFED legislation. So we look forward to working with you.
    Mr. Osborne?
    Mr. Osborne. Thank you, Mr. Chairman.
    Thank you all for coming today.
    I am a trout fisherman and a salmon fisherman, so I am 
interested in some of Mr. Malloch's testimony. This is a little 
bit off the point, but what is the status of whirling disease 
right now in the West?
    Mr. Malloch. We are still in pretty bad shape. There is no 
cure for whirling disease. There is some promise of resistant 
strains of rainbow trout. But there is a lot of need for better 
hatchery practices in the States that are stocking fish, and 
there is a lot of need for trout fishermen to be really careful 
not to spread whirling disease.
    Mr. Osborne. So you do not feel that it has bottomed out 
and is on its way back at this point?
    Mr. Malloch. I hope it has bottomed out.
    Mr. Osborne. Okay. What is the status of summer stream 
flows in the West? Do you feel that it is going to be critical 
in terms of temperature and flows given the current situation, 
or do you feel that flows are apt to be adequate?
    Mr. Malloch. Well, the West is a big place. In the Pacific 
Northwest, it is going to be absolutely critical. In Idaho, 
Montana, Washington, Oregon, parts of California, there are 
going to be very large problems with maintaining existing fish 
stocks.
    In other parts of the West, water supply is not so much of 
a problem.
    Mr. Osborne. I have just one more question. In regard to 
the question that was asked by the Chairman about the removal 
of dams on the Snake River, I know they have tried fish 
ladders, and they have tried trucking. Do you feel that there 
is no viable alternative to knocking the dams out?
    Mr. Malloch. The real problem is getting the smolts 
downstream, and those dams are just big, hot lakes that kill 
the fish on the way down. There seems to be a very depressing 
trend in the population of the fish since the dams were built, 
and I certainly hope that there are alternatives that will 
work, but to date, the science does not appear to be very 
promising.
    Mr. Osborne. So there has been a steady decline in the 
salmon stocks, then?
    Mr. Malloch. There is a lot of noise in the populations; 
you can get a better year or a worse year, but overall, a 
steady decline.
    Mr. Osborne. Thank you.
    I have a question for Mr. Burgess. Is the infrastructure 
used to store and transport water adequate to meet the needs of 
the West's growing population?
    Mr. Burgess. No--a quick answer. I think there is no 
question that we will have major growth over the next decade. 
America's economic center of gravity is moving to the West, and 
there is no reason to believe that that is going to stop when 
you look at the forces that are shaping that.
    The new industries that are starting are also water-
intensive industries, water and energy-intensive industries. So 
I think that contrary to popular belief again, the high-tech 
community is a big user of water and a big user of energy both.
    So we are looking at some major needs to build new 
facilities, create new supplies, reallocate existing 
resources--whatever the solution, there has to be more water 
for M and I uses in the coming years.
    Mr. Osborne. Say some more about new facilities. What do 
you mean by new facilities--dams?
    Mr. Burgess. Storage facilities, surface storage 
facilities, recharging--all the things that the first panel 
talked about I think should be on the table.
    Mr. Osborne. So you and Mr. Malloch are not quite on the 
same page here; is that correct?
    Mr. Burgess. I do not think so. We are next to each other, 
it looks like. I would like to minimize that right now.
    Mr. Osborne. Thank you.
    No further questions, Mr. Chairman.
    Mr. Calvert. Thank you.
    Ms. Napolitano?
    Ms. Napolitano. Thank you, Mr. Chairman.
    Given the information that we heard from the first panel, 
what would be the ideal way that we could work together to 
bring a solution to the surface so that we can all work 
together, not only the trout organizations and the 
environmentalists and the Bureau, as well as the users? What 
would be the ideal solution? What can we look forward to--given 
the fact that we know we have an increase in citizens in the 
Western area of this country, given the fact that we in 
California are going to have to face a 4.4 billion acre 
restriction--given all the givens that we know, what would 
help? What would be the thing that this Committee and the 
Congress should be looking at?
    Mr. Burgess. Could I comment on that? I believe that one of 
the most overlooked facts in the current debate on energy--and 
we are going to have one on water at some point unless we 
change our ways--is that the debate always balances the 
environment against energy supply or, as we have heard today 
from some witnesses, the environment against water supply.
    I have been working in the West for more than 20 years, and 
I remember the Energy Mobilization Board in 1980; I remember 
the oil shale installations in Colorado where we built towns of 
30,000 people overnight; I remember the coal development when 
we had 30 tons a year in 1975, and today in Wyoming, we have 
one mine that produces over 200 million tons of coal a year.
    I think the biggest threat to the environment is unstable 
supplies of water and energy. The biggest threat to the 
environment is an unstable supply of water and energy, because 
when those supplies become unstable, people will do anything, 
and Members here are driven to do things they would never have 
done one year earlier as they did in 1980.
    Ms. Napolitano. Which is why the question--what can we do?
    Mr. Burgess. So what we do is give the highest priority to 
solving the supply problem. Stable supplies are key to a good 
environment.
    Ms. Napolitano. How--we know that is the question, but--
    Mr. Burgess. No, we do not. With all due respect, I think a 
lot of people are saying that we have to balance these two, and 
maybe they go together. I am suggesting they do not go 
together.
    Ms. Napolitano. No, I am not saying there is a balance. I 
am really asking for answers from those people who are bringing 
information to us and saying we know we have to work together--
that is a given--but how do we make it happen?
    Mr. Malloch. We do sit next to each other. I do not think I 
could agree with Dr. Burgess more that unstable supplies are a 
real threat. But I would like to propose two very standard 
answers to the Western water situation. The first is 
efficiency. We have to use the water that we have in a much 
more rational fashion; squeeze the good out of every drop that 
we can. And the second is markets. We have to have markets to 
reallocate the water from uses that may be an artifact of 
history, that may still provide some economic benefit. But 
compared to what Intel can pay for their water, perhaps there 
are some ways that we need to change the use of water.
    So I just do not see that there are going to be a lot of 
new, standard-issue water projects built in the West. There 
just is not that much water left to dam. There may be some 
conveyance facilities that are needed, and there is an awful 
lot of investment in efficiency that is required, and we really 
need to figure out a way to reallocate the water. So efficiency 
and markets.
    Ms. Napolitano. How about speeding up the process for the 
research on recycled water?
    Mr. Young. Terrific. May I?
    Ms. Napolitano. I am talking your language.
    Mr. Young. Thank you. I think that that is absolutely 
paramount to start that process and fully engage the process, 
not in a part-time way but in a full-time way, so that we can 
look at research, so that we can look at supplies.
    I think that what we have heard today is that pristine 
water is being used about to its maximum and that we are going 
to have to look to alternate supplies to be able to find those 
new sources of water. That billion gallons a day of fresh water 
that is going out into the ocean out of the outfalls needs to 
be scalped or recycled and reclaimed so that it can be put to 
appropriate uses. There are small agencies individually 
applying themselves to do that, but it needs to be done on a 
much larger scale, and to do that and accomplish that 
threshold, we need a public confidence and/or approval that 
says this is a tack that we approve of going on. And I think 
research brings the credibility and the science to the 
technology so that the practicing engineers can put that 
infrastructure in place. As we all know, if you go down to the 
wastewater plant, that flow comes 24-7-365, so that is pretty 
darn reliable, and I think that if we use that in appropriate 
ways, we can release some of that water upstream for the fish 
or the growing smaller communities that are in the watersheds 
away from the growing metropolis areas.
    Ms. Salisbury. And if I could segue--and this is sort of 
intuitive and probably very obvious--but to ensure the stable 
supplies and efficiency and perhaps markets requires planning 
and coordination. Those are key.
    Ms. Napolitano. By all agencies.
    Ms. Salisbury. Absolutely--and States and localities and 
tribes as well.
    Ms. Napolitano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mr. Burgess, you made an excellent point and one that I 
agree with, obviously. When I was Chairman of the Energy and 
Mineral Resources Subcommittee, I used to argue that if we do 
not move toward finding resources and delivering those 
resources, we may come to a day when we may try to obtain 
resources from folks who normally would be opposed to that may 
find themselves in favor of something that they were opposed to 
in years past.
    When I was Chairman of the Energy and Environment 
Subcommittee, I would make the same argument for nuclear power, 
that we ought to look at nuclear power and develop nuclear 
power if we want no CO2 in the atmosphere, et cetera.
    Now we are here today with water, and we have heard great 
testimony from all of you and certainly you have testified that 
our population will continue to increase in the West. We have 
had this mentality--do not built it, and they will not come. Do 
not build the freeways, do not build the power plants, do not 
build the infrastructure, do not build additional water 
delivery systems.
    And I would respectfully disagree with Mr. Malloch that 
there are ways to add to water supplies, either offstream 
storage, which obviously has more acceptance to the 
environmental community, and some additional onstream storage 
by expanding additional reservoir capacity and potentially 
several other reservoirs that could be used also for 
flexibility and for environmental mitigation and that we can 
offset some of these things.
    So my question to Mr. Burgess would be if we did not build 
any of this, if we do not build any additional infrastructure 
for water specifically, will people come to California and to 
Idaho and to Oregon and everywhere else, anyway? Will the 
population continue to increase?
    Mr. Burgess. Dick Lamm, the former Governor of Colorado, 
had that theory on building highways, and he did not build the 
highways because he thought that would help manage growth; and 
what it did was create traffic jams. People kept coming--as I 
said, we have more people living in the front range of Colorado 
today than the entire State.
    So I think that as long as we have a Constitution that 
guarantees the free movement of people and goods across State 
lines, you are going to see people moving to the West.
    Mr. Calvert. We saw this mentality, what we refer to as 
``growth inducement''--if you build an infrastructure project 
that induces growth, growth will come. I have found that it 
comes anyway, that if you do not build the infrastructure, it 
comes anyway.
    I think everyone on the panel agrees that reclamation is a 
good thing; that developing water sources and reutilization of 
existing water is a good thing and certainly something that I 
support. My area, obviously, Riverside, California and 
certainly Orange, California, is trying to undergo probably the 
largest reclamation project in the country where you are from, 
wanting to reclaim about 100,000 acre-feet of water to recharge 
aquifer and reutilization of that water through the community. 
That is a significant project, and certainly, I am hopeful that 
legislation could support that. That lessens demand for other 
uses.
    I would like to ask a couple of other questions also 
regarding urbanization in the West. In California specifically, 
obviously--since I am here, I will go ahead and ask the 
question--we have certainly seen urbanization, as you 
mentioned. I guess it is not a very well-kept secret that Los 
Angeles is a big city, and we will see that city continue to 
grow. It is probably the fastest growing city in the West, I 
suspect, not only percentage-wise but just with actual numbers 
of individuals; is that a correct statement?
    Mr. Burgess. Yes. The whole Southern California area is now 
the world's leading agricultural area and the world's leading 
industrial area.
    Mr. Calvert. How many people live in the Los Angeles Basin 
right now?
    Mr. Burgess. More than 12 million.
    Mr. Calvert. I was going to say it is more than that, 
actually, but it is certainly an area that is going to need a 
lot of water, and we are going to need to build the structures 
for it. And in the West, certainly, that has the same effect--
Phoenix; certainly Idaho has significant growth. I guess Idaho 
is the fastest growing State in the Union; is that correct?
    Mr. Burgess. Nevada is, but Idaho is in the top five.
    Mr. Calvert. So it is right up there; okay.
    For WateReuse, how many acre-feet of water is currently 
being recycled nationally, Mr. Young?
    Mr. Young. I do not know that number exactly. I know that 
California and Florida are kind of neck-and-neck at about 300 
million gallons a day.
    Mr. Calvert. So in the next 20 years, if there is adequate 
funding and we have the right program in effect, do you believe 
we can expand that dramatically?
    Mr. Young. Absolutely.
    Mr. Calvert. Certainly the technology is there to do that, 
and that would certainly lessen the urban demand for water to 
some degree.
    What should be the role of the locals and States in funding 
such a recycling program? Do you think that they should take 
that on by themselves, or do you think that Federal assistance 
is necessary in order to kickstart this?
    Mr. Young. It depends on the level of recycling that the 
water agencies themselves are involved in. Part of my 
background is with the Irvine Ranch Water District in Orange 
County, and we had one of the Nation's largest dual 
distribution systems where we recycled 80 percent of all of our 
wastewater and used it as an irrigation source throughout the 
open space, parks and schools, and used it at every possible 
location that we could, and that was totally funded by local 
funds.
    Mr. Calvert. Getting beyond the so-called gray water--
because I know that in their heads, people have toilet-to-tap 
mentality--how do we start changing the perception of people 
that water reutilization is necessary? Do you start educating 
children at a young age about the importance of conservation 
and water reutilization in the schools, and that this water is 
sometimes actually cleaner than the water they are using in the 
first place?
    Mr. Young. Absolutely, Mr. Chairman. It happens through an 
education process with children in schools. It is also a very 
important education process with the professionals in the field 
and with the policymakers and decisionmakers at the local, 
State, and Federal Government to have that support.
    National Academy of Sciences has done work on it, and they 
raise issues, and I think the issues need to be answered 
through a research mode so that we can have that level of 
academia supporting not only the technologies but also the 
process that is gone through in making those decisions.
    Mr. Calvert. That is certainly important.
    Mr. Walden, do you have any questions?
    Mr. Walden. Mr. Chairman, I apologize for being in and out. 
There have been a few crises, some related to the very issue we 
are discussing, especially as it relates to my district.
    Mr. Calvert. You can probably expect more of those crises 
in the future, I suspect. That is what we are talking about.
    Mr. Walden. Yes, I think so, Mr. Chairman. As we have seen 
in this hearing and as I have seen over in the Energy and 
Commerce Committee, not only are we facing this extraordinary 
energy crisis, but also in the Pacific Northwest a water crisis 
of epic proportion, unfortunately, and that is putting huge 
stress on our hydro system and on our economy as well as on our 
crops and on the environment.
    I would say that I reject the notion and would reiterate it 
again to remove the Snake River dams. I do not think that is a 
short-term solution by any means, and I am not convinced that 
it would be that successful long term and it would certainly 
have an incredible impact on the region out there, both in 
terms of transportation and the economy of the region as well 
as our access to power; it is enough power to light the city of 
Seattle, and even the city of Seattle has backed off from their 
original support of that concept. I think most of us have.
    With that, Mr. Chairman, I have another meeting I have to 
go to.
    Mr. Calvert. We are going to leave the Columbia dam up 
there, too.
    Mr. Walden. There are several right up the Columbia River 
system. But having said that, there are clearly some things 
that we are doing in the watersheds. I noticed in some of the 
testimony positive comments about the work that is being done 
on the ground and in the streams. I think that too often, I 
have seen good work on the ground for which we get no credit in 
the big national debate over this.
    It is unfortunate, because the watershed councils, the 
basin projects, the Dechutes Resource Conservancy--a lot of 
effort is going on. Clearly, down at the Klamath Basin, one of 
the solutions down there to the problem of over-application of 
the water is added storage, which could be done fairly 
reasonably at both Klamath Lake and I believe it is either 
Gerber or Clear, where you could add the storage, which will 
help fish, both the salmon and perhaps the suckers as well, and 
provide more water for all of us to fight over for these 
competing needs.
    But right now, I think we have a Federal Government that, 
over time, has appropriated that water about three different 
times, and in this drought situation, it is coming to the 
``perfect storm'' down there, only it is a dry lightning 
storm--there is no water.
    Thank you, Mr. Chairman.
    Mr. Calvert. It is a big problem. Thank you.
    Mr. Osborne, do you have any additional questions?
    Mr. Osborne. Yes, just a couple. Obviously, water is 
necessary for human consumption, animal consumption and 
irrigation, I guess for crop consumption, but it really does 
not have to be there for power generation.
    I think the Chairman earlier alluded to nuclear power, and 
of course there is wind power, solar power, and alternative 
sources of energy. Have any of you thought extensively about 
some solution to the water dilemma along those lines?
    [Pause.]
    Mr. Osborne. Do you understand my question? What I am 
saying is that we obviously have to have power, and we are 
using huge amounts of water right now to generate power, and it 
seems to me that there are other ways to generate power besides 
running it through a hydroelectric dam. It would seem that one 
very obvious way to conserve water would be to look at 
alternative sources, and yet there are a lot of environmental 
concerns about nuclear power. I do not imagine there has been a 
lot done on the West Coast in nuclear power for some time. I 
know there is some wind generation. I do not know much about 
solar power. But I just wondered if any of you have tried to 
put a pencil to the possibility of relieving some of our water 
demands by using alternative sources for power generation.
    Mr. Young. Mr. Congressman, it is a good question, and I 
think one of the answers is that because a lot of the research 
in the water-derived industry has been lacking, we have not had 
the opportunity for the great minds at the universities to sit 
back, take a pencil, and just start noodling those very highly 
philosophical questions--like is there a better way; can we be 
innovative and think outside the box of streams and dams to 
supply water, and is there a way to break the link, as you 
suggest, between water and power, because they historically 
have been linked together just absolutely hip-to-hip.
    I guess I would reiterate my point that if we have 
congressional funding that can get the research at a much 
higher level and at a much broader level, there might be 
opportunities for that.
    I know that the power industry, EPRI, the Electric Power 
Research Institute, has a tremendous funding source and looks 
at it from their side, but we have not had similar parity in 
looking at it from the water side. The nuclear power plants do 
require a tremendous volume of water because they still have 
the same cooling cycle that is required in the generation 
process because of the heat that is generated by nuclear 
instead of using coal or gas-fired burners, and the plants 
along the ocean then become--and we have seen this happen in 
Tampa Bay and in other locations where desalting of the ocean 
water can synergistically be collocated with power plants 
because the water is warmer, the water is able to be reused, 
the brine from desalting is able to be mixed with the discharge 
water without actually adding any new salt to the discharge 
stream or to the ocean to minimize or completely negate any 
environmental effects.
    So there are some opportunities, I think, in that field if 
we are able to more fully explore what we can do with what we 
have. And I think, as pointed out earlier by the panel, if you 
do it in a nonthreatening atmosphere where the populace is 
screaming down at you, ``We have to have this problem solved 
tomorrow,'' it would be a much better way to go to be able to 
establish those solutions.
    Mr. Malloch. If I could briefly answer the question, Trout 
Unlimited did not do this report, but I am aware of a report 
done by NRDC looking at where the power would come from if you 
removed the Snake River dams. Their conclusion was that a 
relatively feasible amount of new wind generation, which is one 
of the most rapidly growing of the renewables, coupled with 
some conservation, could fairly painlessly and in fact 
economically efficiently replace the power generated at the 
Snake River dams.
    I have a copy of that report, and I would be happy to 
provide it to you if you would like it.
    Mr. Calvert. That would be fine. Thank you.
    Mr. Calvert. I want to add one editorial comment, since I 
used to chair the Energy and Environment Subcommittee, so I 
have some knowledge on some of the so-called renewable energy 
uses.
    I think that a good point was made about the utilization of 
nuclear or any power source in order to reutilize that hot 
water to make desalinization less costly; you could do it for 
about $700 an acre-foot rather than $1,500 an acre-foot. But 
the reality is that we become less dependent on hydroelectric, 
because as the population has grown in the West, we have not 
built additional dams, so the amount of capacity and percentage 
of the total amount of demand has diminished. But it has great 
spiking capability because those turbines come on immediately 
when we need that power.
    So it would be very difficult in the West to meet our 
energy requirements--or anywhere, quite frankly--without 
hydroelectric without a long time of creating new energy 
sources. But certainly wind is important--we use a lot of it in 
Riverside County; we are the largest wind farm in the country, 
I think, down the Banning Pass--and we are doing a lot on solar 
energy. Those are great ways to get additional energy, but it 
is going to take a while to replace hydroelectric, which is 
still a significant source for electric power, especially in 
the West. But we need to change the mentality of a lot of 
people, especially on nuclear, because that is really the only 
way we can go without resolving some of the environmental 
problems. We are doing to hear from New Mexico and maybe 
Wyoming here now.
    Ms. Salisbury. Yes. I was just going to say, Mr. Chairman, 
that we have plenty of natural gas that we would be happy to 
provide.
    Mr. Calvert. Built a couple more distribution lines out to 
California; we would be very happy if you would do that.
    Are there any additional comments from the panel?
    Mr. Burgess?
    Mr. Burgess. One thing that concerns me is that looking 
forward, not only do we need more water, but also more energy 
in the West, and yet on the other hand, we are having lively 
public debate about decommissioning dams. We will soon be 
decommissioning nuclear power plants because they are coming to 
the end of their useful lives. We now have proposals to tax 
fossil fuels that were defeated back in 1993, but they are 
coming forward again under the Kyoto Treaty.
    So it seems to me that the lively debate is about getting 
rid of energy sources in the midst of an energy crisis.
    Mr. Calvert. I can fairly say that this administration is 
not going to move toward taxing energy sources relative to the 
Kyoto Accord. I suspect they do not have very many votes for 
the Kyoto Accord in the Senate. But your point is well-taken--
we have to start resolving these issues now.
    I am going to close this hearing because I have to go back 
to the office. I want to thank this panel for your excellent 
testimony and for answering our questions. You certainly 
pointed out that water is the crisis right now, and we need to 
start working toward resolve it.
    With that, thank you for your testimony and for answering 
our questions.
    We are adjourned.
    [Whereupon, at 4:28 p.m., the Subcommittee was adjourned.]

    [Additional material supplied for the record follows:]

    [The following statement was submitted for the record by 
Andrew Purkey:]

   Statement of Andrew Purkey, Executive Director, Oregon Water Trust

    The Oregon Water Trust (OWT) is a private, nonprofit organization 
established in 1993 and governed by a Board of Directors which reflects 
the diversity of water interests in Oregon. OWT uses a voluntary, 
market-based approach to enhance streamflows by acquiring consumptive 
water rights from willing sellers and converting them to instream water 
rights under Oregon state water law.
    OWT appreciates the opportunity to submit written testimony to the 
House Committee on Resources, Subcommittee on Water and Power. OWT 
believes that its approach to streamflow restoration should serve as a 
model for other states attempting to address this ecological problem. 
OWT is interested in exploring opportunities for the Federal Government 
to encourage and support private, voluntary, ``willing buyer/willing 
seller'' exchanges that improve water quantity and quality, consistent 
with state water law.
Background
    Despite Oregon's reputation as a perpetually rainy place, for many 
months of the year in many parts of the state the water in our rivers 
and streams is over-appropriated-more rights to divert water have been 
issued than there is water in the stream. When periods of naturally low 
flows coincide with withdrawals, many streams suffer from inadequate 
streamflows and some are dewatered entirely. When natural streamflows 
are modified by diversions, the ecology of the stream system, 
watershed, and basin are affected as well. The altered flow may no 
longer be sufficient to provide habitat for anadromous or resident 
fish; as water temperature rises, sediment accumulates and water 
quality diminishes. When all water is siphoned from a stream making 
passage impossible, fish may be unable to reach their productive 
habitat areas. Every plan for recovery of salmon and steelhead runs 
recognizes the importance of water quantity and streamflow enhancement 
for restoring and preserving aquatic habitat, fisheries and ecological 
systems.
    OWT specializes in reallocating water to instream use by acquiring 
previously allocated water rights and transferring them to instream 
use. OWT acquires water rights with relatively senior priority dates, 
and uses existing laws and water markets to accomplish voluntary 
transfers to put water back into Oregon's rivers and streams to enhance 
streamflow, restore habitat, and improve water quality.
Oregon Water Law
    In Oregon, it was not until the 1987 passage of the Instream Water 
Rights Act (ORS 537.348) that instream flows were legally recognized as 
being a beneficial use of water. The Instream Water Rights Act allows a 
water right holder to donate, lease or sell part or all of their 
existing water right to become an instream water right, which retains 
the same priority date of the original right. Acquiring instream water 
rights with relatively senior priority dates is the most certain way of 
restoring streamflows, since senior water rights are less likely to be 
shut off in dry years and summer months when there are more rights to 
withdraw water than water in the stream. It is also the fairest way of 
restoring streamflows as it respects existing water rights that have 
been issued by the state.
    OWT converts existing water rights to instream flows using the 
Instream Water Rights Act by first negotiating a private, ``willing 
buyer/willing seller'' agreement with a water right holder, and then 
applying to the Oregon Water Resources Department for approval of a 
lease or transfer of the water right to instream use.
    The 1987 amendments to Oregon's water laws also provided the first 
incentives for water right holders to conserve water resources through 
more efficient use of water. The Conserved Water Program (ORS 537.455) 
makes it possible for a water user who voluntarily increases irrigation 
efficiency to reallocate the saved water to instream use, use it to 
irrigate additional lands, or lease or sell the water to another 
irrigator.
OWT's Tools
    Given Oregon's water laws, water right holders may voluntarily 
choose to work with OWT to create short-term leases, long-term or 
permanent transfers, and conserved water for instream use.
    <bullet> LShort-term Instream Leasing Program: For temporary 
agreements of one or two years, OWT applies to the Oregon Water 
Resources Department's (OWRD) instream leasing program. Leases are a 
temporary way for landowners to restore streamflows and still retain 
the option of irrigating in the near future. A lease is considered by 
the state to be a beneficial use of water and thus protects a water 
right from forfeiture due to non-use.
    <bullet> LPermanent or Long-term Instream Transfers Program: For 
permanent and long-term transfer agreements, including a permanent sale 
or donation or a long-term lease, OWT negotiates a private agreement 
with the water right holder. OWT then files a transfer application with 
OWRD.
    <bullet> LConserved Water Program: OWT helps finance and implement 
projects to conserve water through increasing irrigation efficiency, 
usually converting from less efficient flood irrigation to more 
efficient sprinkler irrigation. In exchange, the landowner then agrees 
to reallocate his share of the saved water to an instream 1water right 
through OWRD.
OWT's Results
    Since its founding in 1993, OWT has pioneered the use of Oregon's 
Instream Water Rights law and Conserved Water Program statute, 
negotiating the first lease and first purchase of water rights for 
transfer to instream use and completing the first conserved water 
project.
    In 1994, OWT completed 4 one-year leases that restored about 2 
cubic feet per second (cfs) of flow. By 2000, OWT had completed 57 
deals involving over 100 water right certificates that restored 35 cfs 
of flow to instream use.
Current Federal Support for OWT
    OWT receives acquisition funds from a variety of private and public 
funding sources, including local, state and Federal agencies. OWT has 
received funding from the U.S. Department of Interior, Bureau of 
Reclamation (Bureau) to restore streamflow to an important tributary of 
the Snake River. The Bureau has also supported OWT's acquisitions in 
the Deschutes Basin of central Oregon.
    OWT has also received funding from the Bonneville Power 
Administration (BPA), under is anadromous fish recovery program. BPA 
funds support OWT's acquisition work throughout the Oregon tributaries 
of the Columbia River. For example, OWT purchased an 1860 priority date 
water right on Fifteenmile Creek, an important winter steelhead 
tributary of the Columbia River near The Dalles, Oregon.
    Finally, OWT and the Applegate River Watershed Council worked with 
Oregon's congressional delegation last year to secure a $500,000 
appropriation from Congress to help support the Farmer's Ditch project 
on the Little Applegate River in southwestern Oregon.
    The $1.5 million project will restore approximately 14 cfs of flow 
(7000 gallons per minute) to the Little Applegate and allow for the 
removal of two diversion structures that serve as passage barriers for 
fish. Project funds will be used to switch participating landowners to 
pump and sprinkler irrigation systems with water being diverted from 
the mainstem Applegate River to irrigate approximately 700 acres. The 
Applegate River has a U.S. Corps of Engineers storage facility at its 
head, with the Bureau allocating water for downstream irrigation use. 
Other finders of this innovative project include the state of Oregon, 
the National Fish and Wildlife Foundation, the Orvis Company and the 
World Wildlife Fund.
Conclusion
    Again, OWT appreciates the opportunity to submit this written 
testimony to the House Committee on Resources, Subcommittee on Water 
and Power. We look forward to working with members of the committee to 
evaluate appropriate opportunities for the Federal Government to 
encourage and support the work of OWT and similar private organizations 
across the United States, consistent with each state's water law.
                                 ______
                                 
    [The following statement was submitted for the record by 
Greg Walcher:]

 Statement of Greg Walcher, Executive Director, Colorado Department of 
                           Natural Resources

    Mr. Chairman, the State of Colorado thanks you for holding this 
important hearing on drought and the need for water storage in the 
West. We may have grown complacent about water supplies over the recent 
decades of abundance, but last summer's hot, dry conditions provided a 
sobering reminder of cyclic drought and devastation.
    In December of 1999, Colorado Governor Bill Owens convened a state-
wide conference on flood and drought preparedness. There, we learned 
the question is not ``if'' butt ``when'' we will enter another severe, 
long-term drought like the dust bowl of the 1930s or the drought of the 
1950s. Only water storage provides adequate protection against these 
natural disasters, so it was encouraging that a recent survey of 
Coloradans found 90% believe we should build reservoirs to conserve 
surplus Colorado River water.
    The first Europeans to explore what is now Colorado labeled it an 
arid wasteland. In this century, water storage and irrigation 
transformed the State. Cottonwoods and willows dot the once-treeless 
plains. Rivers that dried up in the summer months now provide drinking 
water, irrigation, recreation and wildlife habitat year-round.
    However, last year, Colorado suffered a dry spring and record-
breaking summer heat which led to drought conditions. South Platte 
River flows were lower than ever in recorded history and demand for 
irrigation water drained several key reservoirs. Nearly two dozen 
counties were forced to seek Federal drought disaster relief. Several 
other communities placed restrictions on lawn watering, showers and 
even toilet flushing.
    The Colorado Water Conservation Board recently surveyed communities 
to judge state-wide preparedness for drought and found that less than 
half of cities surveyed have done any kind of drought planning. If dry 
conditions persist, we could be in serious trouble.
    In a sustained drought, farmers and ranchers would lack water 
required to produce food. Many could be forced to sell their land or 
water, thereby encouraging development of open space and loss of 
wildlife habitat. Even farms with senior water rights could be gobbled 
up by municipalities thirsty for drinking water. The impact on rural 
communities could be devastating.
    Conservation measures help stretch limited supplies, but 
conservation alone may not be enough. Some water users are 
collaborating to stretch supplies through innovative new measures such 
as conjunctive use and water reuse. These efforts, which examine how to 
recharge aquifers in wet years and reuse municipal water for irrigation 
and industrial use, hold real promise. But the most certain drought 
protection is a long-term water supply through storage.
    At Governor Bill Owens' flood and drought conference, the Army 
Corps of Engineers calculated reservoirs have saved Coloradans $19.8 
billion from natural disasters like floods and droughts. That equates 
to a six dollar savings for every dollar spent on reservoirs for flood 
control and drought mitigation. Water storage also provides resources 
for recreation and wildlife.
    Across the West, our future is forever linked to our water. Our 
challenge is to bring together diverse interests to find common goals 
for the benefit of local communities and the environment. Without 
adequate planning, innovative measures and new water storage, the West 
could once again resemble the hostile and arid wastelands disparaged by 
early travelers.

</pre></body></html>
